APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Second Circuit, United States v.
Seng, No. 18-1725-cr (Aug. 9, 2019)............ App-1
Appendix B
Order, United States Court of Appeals for
the Second Circuit, United States v. Seng,
No. 18-1725-cr (Oct. 16, 2019)................... App-71
Appendix C
Judgment, United States District Court
for the Southern District of New York,
United States v. Seng, No. 1:15-CR00706-VSB-3 (June 7, 2018)...................... App-73
Appendix D
Relevant Statutory Provisions .................. App-86
15 U.S.C. § 78dd-2............................... App-86
15 U.S.C. § 78dd-3............................... App-98
18 U.S.C. § 666 .................................. App-106

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 18-1725-cr
________________
UNITED STATES OF AMERICA,
v.

Appellee,

NG LAP SENG, AKA DAVID NG,
AKA DAVID NG LAP SENG,
Defendant-Appellant.
JOHN W. ASHE, FRANCIS LORENZO, AKA FRANK
LORENZO, JEFF C. YIN, AKA YIN CHUAN, SHIWEI YAN,
HEIDI HONG PIAO, AKA HEIDI PARK,
Defendants. *
________________
Argued: November 8, 2018
Decided: August 9, 2019
________________
Before: Raggi, Hall, and Sullivan, Circuit Judges.
________________
OPINION
________________
Reena Raggi, Circuit Judge:

* The Clerk of the Court is directed to amend the official caption
to read as shown above.

App-2
Defendant Ng Lap Seng paid two United Nations
(“U.N.”) ambassadors—one of whom was for a time
also serving as President of the General Assembly—
more than $1 million to secure a U.N. commitment to
use Ng’s Macau real estate development as the site for
an annual U.N. conference. Based on this conduct, Ng
now stands convicted after a jury trial of paying and
conspiring to pay bribes and gratuities in violation of
18 U.S.C. §§ 371, 666, and the Foreign Corrupt
Practices Act (“FCPA”), 15 U.S.C. §§ 78dd-2, 78dd-3,
as well as of related conspiratorial and substantive
money laundering, 18 U.S.C. § 1956(a)(2)(A), (h). A
judgment, entered on June 7, 2018, in the United
States District Court for the Southern District of New
York (Vernon S. Broderick, Judge), orders Ng to serve
concurrent 48-month prison terms on each of six
counts of conviction, 1 to forfeit $1.5 million, to pay a
$1 million fine, and to make restitution to the U.N. in
the amount of $302,977.20.
Ng now appeals his conviction, arguing that
(1) his conduct cannot have violated § 666 because the
U.N. is not an “organization” within the meaning of
that statute; (2) the jury instructions as to both § 666
and FCPA bribery were deficient in light of McDonnell
v. United States, 136 S. Ct. 2355 (2016); (3) the
evidence was insufficient as a matter of law to support
a guilty verdict for these crimes; and (4) without valid
The counts of conviction are as follows: Count
One - conspiracy to violate § 666 and the FCPA; Count
Two - substantive violation of § 666; Count Three - substantive
violation of the FCPA, 15 U.S.C. § 78dd-2; Count
Four - substantive violation of the FCPA, 15 U.S.C. § 78dd-3;
Count Five - § 1956 money laundering conspiracy; and Count
Six - substantive § 1956 money laundering.
1

App-3
§ 666 and FCPA predicate counts of conviction, his
related money laundering convictions cannot stand.
For the reasons explained in this opinion, Ng’s
arguments fail on the merits. Accordingly, we affirm
the judgment of conviction on all counts.
BACKGROUND
I.

Prosecution Evidence at Trial

Because Ng appeals a judgment of conviction
following a jury trial, we summarize the evidence
adduced in the light most favorable to the prosecution.
See United States v. Thompson, 896 F.3d 155, 159 (2d
Cir. 2018).
A. Ng’s Convention Center Plan
In 2009-10, Chinese national Ng sought to develop
his already extensive Macau real estate holdings into
a multi-billion-dollar complex that would include
hotels, luxury apartment buildings, and a world-class
convention center. To ensure the reputation of his
convention center, and thereby to enhance the use and
value of adjacent real estate within his complex, Ng
sought to have the U.N. formally designate his center
as the permanent site for the annual convention, or
“Expo,” of its Office for South-South Cooperation
(“UNOSSC”), an event with broad attendance
throughout the private as well as public sectors. 2
Toward this end, Ng engaged in a sustained effort over
five years to bribe two U.N. officials: (1) Francis
Lorenzo, a United States citizen serving as the
Dominican Republic’s Deputy Ambassador to the
U.N.; and (2) John Ashe, the U.N. Ambassador for
2 UNOSSC promotes mutual assistance among developing
countries of the “Global South.” Trial Tr. at 1795-96.

App-4
Antigua and Barbuda and, for a time during the
bribery scheme, President of the General Assembly,
the second-ranking position within the U.N.
B. Ng Recruits Lorenzo and Ashe
Ng first met Lorenzo in March 2009, and in
December of that year named him president of SouthSouth News (“SSN”), a media organization owned by
Ng and incorporated in New York. Lorenzo, who
pleaded guilty to bribery and other charges pursuant
to a cooperation agreement with the government, 3
testified that he understood that a portion of the
$20,000 a month that Ng was paying him as SSN
salary, as well as other payments described herein—
which, by 2015, totaled over $1 million—were in fact
bribes to secure for Ng, not merely general U.N.
support for UNOSSC’s use of his Macau convention
center, but a formal documented commitment to do so.
In short, Lorenzo understood that Ng was paying him
in order to procure “an official document from the
United Nations,” Trial Tr. at 652, i.e., he wanted “a
contract,” id. at 671.
Ng and Lorenzo agreed that as the first step
toward this goal, Lorenzo would host “working
sessions” for other ambassadors to discuss issues of
South-South cooperation. App’x 1449. The plan was
for the sessions to produce a report making it appear
Specifically, Lorenzo pleaded guilty to (1) conspiratorial and
substantive bribery in violation of the FCPA; (2) receiving and
paying bribes and gratuities in violation of 18 U.S.C.
§ 666(a)(1)(B), (a)(2); and (3) money laundering, tax fraud, and
failure to file reports of foreign bank accounts in violation of 18
U.S.C. §§ 1956(a)(2)(A), (h); 26 U.S.C. § 7606(1); and 31 U.S.C.
§§ 5314, 5322(a).
3

App-5
that the attending ambassadors were urging the U.N.
to designate an official UNOSSC meeting center.
At Lorenzo’s suggestion, Ng recruited Ashe to
attend the first meeting, which was held in China in
April 2011. To induce Ashe’s attendance, Ng paid for
a vacation trip to New Orleans by Ashe’s family. Ng
also promised Ashe whatever financial assistance he
might need if he were to become President of the U.N.
General Assembly. 4 After the China meeting, at
Ashe’s request, Ng began funneling $2,500-$6,000 per
month to Ashe personally, disguised as payments to
Ashe’s wife for consulting services provided to SSN. In
fact, as SSN employees testified, Ashe’s wife never
performed any such services. Nevertheless, the sham
monthly payments continued through early 2015.
Indeed, even when SSN was reducing expenses in
2014, Lorenzo told Ng that payments to Ashe’s wife
should continue because “we need[] John [Ashe] to
continue his support on the [E]xpo.” Trial Tr. at 1258.

Apparently, the Office of the President of the General
Assembly relies, in part, on “voluntary contributions, in cash and
in kind, from various donors, including Member States, United
Nations
entities,
foundations
and
nongovernmental
organizations.” App’x 1281 (U.N. Task Force Report). While
contributions to the Office of the President of the General
Assembly are not, by themselves, unlawful, making such
contributions in exchange for a statutorily proscribed quid pro
quo can constitute unlawful bribery. See United States v. SunDiamond, 526 U.S. 398, 404-05 (1999); cf. McCormick v. United
States, 500 U.S. 257, 273 (1991) (holding that elected official can
commit Hobbs Act extortion for receiving campaign contributions
if payments are made “in return for an explicit promise or
undertaking by the official to perform or not to perform an official
act”).
4

App-6
C. Acts in Furtherance of the Expo Scheme
In return for Ng’s payments, Lorenzo and Ashe
took various actions to support UNOSSC designating
Ng’s convention center as its permanent Expo site. On
appeal, as at trial, the government highlights four
particular acts taken by the two ambassadors.
1.

Placing Documents in the Official
Record of the U.N. General Assembly
Reporting Ambassadorial Support
for Ng’s Convention Center Plan

Following the 2011 working sessions, Ng directed
Lorenzo and Ashe to publicize and inflate
ambassadorial support for UNOSSC’s use of Ng’s
convention center. Toward that end, the ambassadors
drafted and, on March 15, 2012, Ashe signed, a letter
on U.N. letterhead, addressed to the U.N. Secretary
General, reporting that representatives from eight
member nations and various U.N. departments had
held “high-level meetings and working sessions” that
resulted in the launching of a “Global Business
Incubator.” App’x 1449. 5 With the assistance of an
unwitting U.N. official, Lorenzo and Ashe then had
the letter made a part of the official General Assembly
record (hereafter “U.N. Document”), a step that could
only be taken by an accredited U.N. ambassador and

The letter ascribes high purposes to the Global Business
Incubator while providing no specifics as to their attainment:
describing Incubator as “a facilitator for Governments and the
private sector in building the capacity of developing countries to
leverage innovation and creativity in achieving . . . [c]ore
objectives” such as “the creation of jobs and economic growth
through sustainable development and urbanization.” App’x 1451.
5

App-7
that allows the document to be circulated to all
member states. 6
In December 2012, Ng instructed Lorenzo to
revise the March U.N. Document so that it expressly
referenced a permanent Expo center to be developed
by Ng’s company, Sun Kian Ip Group (“SKI”). Ashe
and Lorenzo achieved this objective by securing
reissuance of the U.N. Document on June 6, 2013, “for
technical reasons.” Id. at 1586 (hereafter “Revised
U.N. Document”). In fact, changes to the reissued
document went well beyond the technical. Consistent
with Ng’s instructions, Ashe and Lorenzo added two
entirely new substantive paragraphs to the letters, as
follows:
In this regard, I am pleased to inform you
that in response to the recommendation, Sun
Kian Ip Group of China has welcomed the
initiative and will serve as the representative
for the implementation of the Permanent Expo
and Meeting Centre for the countries of the
South. This is one of the first centres in a
Although the views expressed in such a communication
remain those of the author, not the U.N.—as would be the case
for a resolution voted on by Assembly members—a submitting
ambassador must follow U.N. rules for his communication to
become part of the official record. For example, he must link his
communication to a U.N. agenda item. Ashe’s letter was, in fact,
linked to agenda item 16 for the General Assembly’s sixty-sixth
session, identified as “information and communication
technologies for development.” App’x 1449, 1586. Once a
communication is made part of the official General Assembly
record, the U.N. translates it into each of its six official
languages, prints it in journals reflecting the General Assembly
agenda, and makes it publicly available on U.N. websites.
6

App-8
network of incubator centres in a publicprivate partnership with the support of
leading partner South-South News.
As envisaged, I foresee that this permanent
exposition centre of innovation and excellence
will play an important role, not only in
accelerating the development and deploying
of technologies, including through SouthSouth and triangular cooperation, but also in
harnessing the potential of [information and
communication technologies] for sustainable
growth, investment, capacity-building and
job creation, particularly in developing
countries.
Id. (emphases added).
2.

UNOSSC’s Letter of Support for Ng’s
Convention Center Plan

Ng further directed Lorenzo to obtain a letter
from UNOSSC endorsing a permanent Expo center,
characterizing such support as a “top priority.” Id. at
1452. Lorenzo testified that such a letter from
UNOSSC would, indeed, provide “very significant”
support within the U.N. for Ng’s convention center
plan. Trial Tr. at 1092. Ng paid Lorenzo $30,000 per
month to secure such a letter (in addition to the
$20,000 per month already being paid to him as SSN
president), funneling the money through sham
contract payments to a Dominican company operated
by Lorenzo’s brother.
The opportunity for procuring such a letter arose
when, for a time in 2013, Ashe served as President of
both the U.N. General Assembly and the Assembly’s
High-Level Committee on South-South Cooperation,

App-9
which was serviced by UNOSSC, then headed by
Chinese national Yiping Zhou. Taking advantage of
these circumstances, Ashe and Lorenzo proceeded to
procure the demanded UNOSSC commitment letter,
creating a paper trail that made no mention of
payments the two men were receiving from Ng to do
so but, rather, suggested that they were objectively
performing their official duties in supporting Ng’s
plan.
As the first step in the charade, on October 10,
2013, Ng sent Lorenzo a letter congratulating his U.N.
leadership on South-South cooperation; referencing
SKI’s purported appointment (as indicated in the
Revised U.N. Document) to implement a “Permanent
Expo and Meeting Center for the countries of the
South”; and seeking Lorenzo’s ambassadorial
assistance in bringing to the attention of the President
of the General Assembly, i.e., Ashe, and UNOSSC an
attached
“master
plan
and
proposal
for
implementation” of the center. App’x 1602. The letter
gave Lorenzo an excuse to meet with Ashe and Zhou
and, thereafter, to make a formal request “on behalf of
the Ambassadors” who had attended earlier Expos to
give favorable consideration to the “offer made by
Macao 7 Special Administrative Region of the People’s
Republic of China to provide the Global South-South
Development Expo a permanent home.” Id. at 153637.
When a month passed with no action on Lorenzo’s
request, Ng had his subordinate threaten to halt
7 While this opinion refers to “Macau,” to the extent some
record evidence uses the alternative spelling, “Macao,” we so
quote it.

App-10
future payments to Lorenzo “unless further progress
is made.” Id. at 1478. Ten days later, on November 28,
2013, Lorenzo met in New York with the subordinate,
who gave Lorenzo $20,000 to pay Ashe as a further
inducement for his influencing Zhou to endorse Ng’s
permanent Expo plan. 8 After more meetings among
Lorenzo, Ashe, and Zhou, the UNOSSC director
provided the desired letter of support. 9
The letter, which was backdated to June 7, 2013—
so that it could be copied to Ashe as if he were still
serving as President of the General Assembly HighLevel Committee—was addressed to both Lorenzo in
his ambassadorial capacity and to Ng’s SKI
organization. Written on UNOSSC letterhead and
signed by Zhou as UNOSSC director, the letter
observed that the Revised U.N. Document “clearly
state[s] that Sun Kian Ip Group of China is tasked to
establish the Permanent Expo and Meeting Centre for
the countries of the South,” professed UNOSSC’s view
that this was “a very welcome initiative,” and
expressed its “strong support for this initiative led by
Sun Kian Ip Group with the coordination of [SSN].” Id.
at 1642.
3.

Ashe’s March 2014 Trip to Macau

In March 2014, Ng arranged for Ashe, as General
Assembly President, and accompanying U.N. staff and
security officers, to visit Macau for a first‐hand
Lorenzo gave Ashe only $16,000, the amount Ashe had
requested Ng pay to cover the cost of a reception that Ashe
wished to host for U.N. staff. Lorenzo kept the rest of Ng’s
$20,000 payment for himself.
8

9 The government does not contend that Zhou was other than
an unwitting participant in the charged bribery scheme.

App-11
inspection of the almost‐completed convention center
complex. Ashe agreed to make the trip only if Ng made
a sizable contribution to the Office of the President of
the General Assembly. See id. at 1493 (“I will not go
unless I see the funds . . . to help fund the PGA
office.”). On the trip, Ashe assured Ng of his support
for U.N. use of the Macau center in return for Ng’s
continued financial support of Ashe’s endeavors as
General Assembly President.
Soon thereafter, Ashe asked Ng to pay the
$200,000 cost of a concert that Ashe wished to host at
the U.N. Lorenzo advised Ng to make the payment to
ensure that Ashe “continues supporting” a convention
center agreement. Trial Tr. at 1310. On June 3, 2014,
Ng wired the requested amount to an account
designated by Ashe.
4.

UNOSSC’s Expo Commitment and
Pro Bono Agreement

On June 13, 2014, approximately ten days after
Ng wired Ashe the requested $200,000, Zhou sent
Lorenzo a letter stating that “with the support of the
President of the General Assembly”—i.e., Ashe—
UNOSSC expected to have a pro bono agreement
drafted in a matter of weeks for SKI to host the 2015
UNOSSC Expo as well as another global forum. App’x
1641. 10 On December 25, 2014, Ng on behalf of SKI
and Zhou on behalf of UNOSSC did, in fact, sign what
was entitled the “Pro Bono Agreement . . . [f]or the
hosting of the United Nations Global South-South
10 The contract was denominated a “pro bono agreement”
because Ng’s company would be obligated to provide the required
Expo facilities at no cost to UNOSSC.

App-12
Development Expo and Permanent Meeting Center
and other Mutually Agreed Events.” Id. at 1836-48. 11
A few weeks later, on February 2, 2015, Zhou sent
a letter to Lorenzo—identified therein as President of
both SSN and SKI—formally inviting these two
entities to host both the 2015 Expo and a 2015 global
forum on poverty. Zhou therein reported that “the
President of the . . . General Assembly, H.E. John
Ashe, [had] been calling upon [Zhou’s] office to step up
the efforts to support . . . in particular, the Permanent
Expo and Meeting Centre in Macao,” and that
UNOSSC “strongly support[ed]” such a center by SKI
and SSN. Id. at 1525.
D. The 2015 Expo
In August 2015, Ng launched his Macau
convention center with a UNOSSC forum attended by
U.N. ambassadors, as well as other public- and
private-sector officials. Lorenzo prepared an “outcome
document” for circulation within the U.N., which
reported, among other things, participants’ call for the
establishment of a permanent convention center for
the Expo. Lorenzo and Ashe then worked to
incorporate the document into a General Assembly
resolution, broaching such action to the thenpresident of the High-Level Committee on SouthSouth Cooperation. The plan was abandoned,
however, after Ng’s arrest the following month.

11 Despite the title reference to a “Permanent Meeting Center,”
the agreement ran only through December 31, 2017, and was
terminable at will even earlier on either side giving proper notice.

App-13
II. Defense Evidence at Trial
The defense case was limited to offering into
evidence financial records and a U.N. report, and to
having a witness testify to certain of these documents.
III. Conviction
On July 27, 2017, a jury found Ng guilty on all
counts charged. The district court sentenced Ng on
May 11, 2018, to a total of 48 months’ imprisonment
and a $1 million fine, and ordered forfeiture of $1.5
million and restitution of $302,977.20. Judgment was
entered on June 7, 2018. This timely appeal followed.
On June 27, 2018, this Court denied Ng’s motion for
bail pending appeal.
DISCUSSION
I.

The § 666 Challenge

Ng argues that his § 666 convictions cannot stand
because the U.N. is not an “organization” within the

App-14
meaning of that statute. 12 13 Ng does not dispute that
the U.N. meets the dictionary definition of the term
The statute, entitled “Theft or bribery concerning programs
receiving Federal funds,” states in pertinent part as follows:
12

(a) Whoever, if the circumstance described in
subsection (b) of this section exists—
(1) being an agent of an organization, or of a
State, local, or Indian tribal government, or any
agency thereof—
...
(B) corruptly solicits or demands for the
benefit of any person, or accepts or agrees to
accept, anything of value from any person,
intending to be influenced or rewarded in
connection with any business, transaction,
or series of transactions of such
organization, government, or agency
involving any thing of value of $5,000 or
more; or
(2) corruptly gives, offers, or agrees to give
anything of value to any person, with intent to
influence or reward an agent of an organization,
or of a State, local or Indian tribal government, or
any agency thereof, in connection with any
business, transaction, or series of transactions of
such organization, government, or agency
involving anything of value of $5,000 or more;
shall be fined under this title, imprisoned not
more than 10 years, or both.
(b) The circumstance referred to in section (a) of this
section is that the organization, government, or agency
receives, in any one year period, benefits in excess of
$10,000 under a Federal program involving a grant,
contract, subsidy, loan, guarantee, insurance, or other
form of Federal assistance.
18 U.S.C. § 666 (emphases added).

App-15
“organization.” 14 Indeed, he acknowledges that the
“UN is undeniably a public international
organization.” Appellant Reply Br. at 4; see also
Appellant Br. at 23-24. Nevertheless, he maintains
that “organization,” as used in § 666, must be
construed narrowly to reference only private, and not
public, entities.
A. Precedent Supports § 666 Prosecution of
U.N. Bribery
In arguing that § 666 does not reach a public
international organization such as the U.N., Ng
confronts a high hurdle: this court’s decision in United
States v. Bahel, 662 F.3d 610 (2d Cir. 2011). In that
case, this court affirmed the § 666 conviction of a U.N.
official who corruptly accepted and solicited things of
value in return for influencing the award of U.N.
contracts.

Although Ng was prosecuted under § 666 on both bribery and
gratuity theories, he does not distinguish between these theories
in pursuing his appellate challenges. This court reviews those
challenges by reference to bribery, which is distinguished from
the unlawful payment of a gratuity by a quid pro quo element.
See United States v. Sun-Diamond Growers of Cal., 526 U.S. at
404-05.
13

See Black’s Law Dictionary (10th ed. 2014) (defining
“organization” as “body of persons . . . formed for a common
purpose”); Oxford English Dictionary (3rd ed. 2004) (defining
“organization” as an “organized body of people with a particular
purpose, as a business, government department, charity”);
Webster’s Third New Int’l Dictionary (2002) (defining
“organization” as “a group of people that has a more or less
constant membership, a body of officers, a purpose, and usu. a set
of regulations”).
14

App-16
Ng argues that Bahel does not control this appeal
because the defendant there challenged only whether
United States’ contributions to the U.N., specified by
international agreement, qualified as federal program
benefits under § 666. He did not ask the court to decide
whether the U.N. was an “organization” under § 666.
Perhaps not. But the court’s opinion is more
reasonably read to suggest that the matter is beyond,
rather than open to, question. Bahel explains that
Congress having allocated money to the U.N., the
United States “has a legitimate and significant
interest in prohibiting . . . acts of bribery being
perpetuated at the organization,” and identifies “no
principled basis on which to distinguish congressional
authorization of the payment [of] U.N. dues from
federal monies flowing to [other] non-governmental
organizations.” Id. at 629-30 (internal quotation
marks omitted) (emphases added).
B. Section 666’s Text and Context Warrant
Excluding Only Governments, not
Public International Organizations,
from the Word “Organization”
Even without Bahel, Ng’s urged narrow reading of
§ 666 is not persuasive. We review questions of
statutory interpretation de novo, see, e.g., United
States v. Epskamp, 832 F.3d 154, 160 (2d Cir. 2016),
and here conclude that while “organization,” as used
in § 666, does not include governments or their
constituent parts, it does include non-government
public international organizations such as the U.N.
“Statutory analysis necessarily begins with the
plain meaning of a law’s text and, absent ambiguity,
will generally end there.” Dobrova v. Holder, 607 F.3d

App-17
297, 301 (2d Cir. 2010) (internal quotation marks
omitted); see Salinas v. United States, 522 U.S. 52, 57
(1997) (stating, in construing § 666, that “[c]ourts in
applying criminal laws generally must follow the plain
and unambiguous meaning of the statutory language”
(internal quotation marks omitted)).
Section 666 specifically defines certain words
used in that statute. For example, the term “State,” as
used in the phrase “or of a State, local or Indian tribal
government,” is statutorily defined to mean “a State of
the United States, the District of Columbia, and any
commonwealth, territory, or possession of the United
States.” 18 U.S.C. § 666(d)(4). But § 666 provides no
statute-specific
definition
of
“organization.”
Nevertheless, at the outset of Title 18, Congress
provides a broad general definition of the word: “As
used in this title, the term ‘organization’ means a
person other than an individual.” Id. § 18. Further, the
very first provision of the United States Code
generally defines the word “person”: “In determining
the meaning of any Act of Congress, unless the context
indicates otherwise— . . . the word[] ‘person’
. . . include[s] corporations, companies, associations,
firms, partnerships, societies, and joint stock
companies, as well as individuals.” 1 U.S.C. § 1. Read
together, these two definitional provisions signal that,
unless the statutory context indicates otherwise, the
word “organization,” whenever used in Title 18,
applies broadly to all legal “persons,” whether large or
small, domestic or international, public or private,
governmental or nongovernmental. See Black’s Law
Dictionary (10th ed. 2010) (defining “legal” or
“artificial” person as “entity, such as a corporation,
created by law and given certain legal rights and

App-18
duties of a human being”); cf. Town of River Vale v.
Orangetown, 403 F.2d 684, 686 (2d Cir. 1968) (holding
that municipal corporation, like any “corporation,” is
person within protection of Fourteenth Amendment).
The context in which “organization” is used in
§ 666, however, does signal some definitional
narrowing; specifically, governments and their
constituent parts are not among the legal persons that
Congress intended to include within the word as used
in that statute. See generally United States v.
Epskamp, 832 F.3d at 162 (“A particular statute’s
plain meaning can best be understood by looking to
the statutory scheme as a whole and placing the
particular provision within the context of that
statute.” (internal quotation marks omitted)). This is
evident from the fact that the statute prohibits the
solicitation or payment of bribes not only as to
“organization[s],” but also as to “State, local, or Indian
tribal government[s]” receiving federal funds. 18
U.S.C. § 666(a)(1), (2). There would be no need to
identify such government entities in § 666 if they were
already among the legal persons covered by the word
“organization.” It is a well-established canon of
construction that statutory text should not be
construed so broadly as to render other statutory text
superfluous. See, e.g., Marx v. Gen. Revenue Corp., 568
U.S. 371, 386 (2013); United States v. Valente, 915
F.3d 916, 923 (2d Cir. 2019). Thus, consistent with this
canon, we construe the word “organization” as used in
§ 666 to reference any legal person that is not a
government precisely because Congress used
additional language—”or a State, local or Indian tribal

App-19
government”—to identify those government entities it
wished to cover by the statute. 15
Construing “organization” to mean all legal
persons except governments yields no peculiar result.
Indeed, in other contexts, Congress has so limited the
word, while otherwise maintaining its broad
application. See, e.g., 18 U.S.C. § 513(c)(4) (stating
with respect to securities of “State” or “organization”
that “term ‘organization’ means a legal entity, other
than a government, established or organized for any
purpose, and includes a corporation, company,
association, firm, partnership, joint stock company,
foundation, institution, society, union, or any other
association of persons which operates in or the
activities of which affect interstate or foreign
commerce”). Congress’s failure in one statutory
provision to impose a limit expressly stated in another
provision can signal its intent not to narrow the reach
of the unmodified word. See, e.g., Russello v. United
States, 464 U.S. 16, 23 (1983) (“[W]here Congress
includes particular language in one section of a statute
but omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or exclusion.”
As the text indicates, Congress did not extend § 666 to all
government entities receiving federal money. Notably, the
statute does not apply to bribery within branches, departments,
or agencies of the federal government, a matter proscribed, both
as to solicitation and payment, by 18 U.S.C. § 201; see infra at
note 21 (quoting statutory text). It also does not apply to bribery
of foreign government officials, conduct prohibited by the FCPA
when engaged in by United States domestic concerns or by any
person within United States territory. See 15 U.S.C. §§ 78dd-2(a),
78dd-3(a); infra at note 20.
15

App-20
(internal quotation marks omitted)). But here,
statutory context and the canon against superfluous
construction allow us to identify a limiting intent even
though not explicitly expressed. See generally Burns v.
United States, 501 U.S. 129, 136 (1991) (“An inference
drawn from congressional silence certainly cannot be
credited when it is contrary to all other textual and
contextual evidence of congressional intent.”).
Neither the text nor structure of § 666, however,
supports the still narrower construction of
“organization” urged by Ng. He would have us cabin
the word, as used in § 666, to private organizations,
excluding from the statute’s protection scores of public
international organizations in which the United
States is a member and for which it is frequently a
major financial contributor. 16 In addition to the U.N.,
such organizations include the International
Monetary Fund, the World Health Organization, the
Organization of American States, the International
Committee of the Red Cross, the International
Criminal Police Organization (INTERPOL), and many
more. See 22 U.S.C. § 288 (listing more than 80
entities “designated by executive order as public
international organizations”). 17 Such legal persons
easily fall within the broad definition of “organization”
The United States contributes in excess of $1 billion annually
to U.N. operations.
16

17 That statute, in providing privileges and immunities to
“international organization[s],” states that the term “means a
public international organization in which the United States
participates pursuant to any treaty or under the authority of any
Act of Congress authorizing such participation or making an
appropriation for such participation.” 22 U.S.C. § 288.

App-21
established by 1 U.S.C. § 1 and 18 U.S.C. § 18. And
there is no need to exclude such persons from the word
“organization” as used in § 666 to avoid rendering
other language in the statute superfluous. In the
absence of such a concern, neither statutory text nor
purpose supports construing “organization,” as used in
§ 666, to exclude public international organizations.
See Salinas v. United States, 522 U.S. at 56 (stating
that § 666 has “expansive, unqualified language, both
as to the bribes forbidden and the entities covered”
(emphasis added)); see also United States v. Bahel, 662
F.3d at 627 (observing, in upholding § 666 conviction,
that Congress has an interest in “ensuring that any
[federal] money contributed to the U.N. is responsibly
expended and accounted for”). 18
C. The U.N. Is Not Excludable from § 666 as
a Foreign Government
Nor can Ng avoid § 666 culpability by analogizing
the U.N. to a foreign government. The U.N. is not a
In urging otherwise, Ng quotes a reference to “private
organizations” in legislative history. See S Rep. No. 98-225, at
369 (1983) (observing that § 666 is intended to protect “federal
monies that are disbursed to private organizations or state and
local governments”). While legislative history may aid statutory
construction when text, context, and canons of construction fail
to make Congress’s intent clear, the Supreme Court has
cautioned against giving “authoritative weight” to “a single
passage of legislative history that is in no way anchored in the
text of the statute.” Shannon v. United States, 512 U.S. 573, 583
(1994); accord United States v. Awadallah, 349 F.3d 42, 54 (2d
Cir. 2003). Here, Congress did not employ the term “private
organization” in § 666; rather, it spoke of “organization,” without
qualification. Thus, we construe the word according to its broad
statutory definition, see 1 U.S.C. § 1; 18 U.S.C. § 18, limited only
as necessary to avoid superfluousness.
18

App-22
sovereign entity. Rather, it is an association of more
than 190 independent sovereigns that have joined in,
and agreed to fund, what they themselves describe as
an “Organization . . . based on the principle of the
sovereign equality of all its members,” for the purpose
of “maintain[ing] international peace and security.”
Charter of the United Nations, ch. I, art. 1, § 1, art. 2,
§ 1. Thus, from a definitional perspective, the U.N.
cannot reasonably be deemed a “foreign government”
rather than an international “organization” under
§ 666.
This conclusion finds further support in statutes
that refer separately to “foreign governments” and
“international organizations,” even when Congress
chooses to apply the law equally to both. See, e.g., 10
U.S.C. § 130c (explaining that statutory protection for
sensitive information of foreign governments reaches
information provided by or produced in cooperation
with an international organization as well as a foreign
government); 18 U.S.C. § 1116(b)(4)(B) (defining
“internationally protected person” in federal homicide
statute to include representatives, officers, employees,
or agents of United States government, foreign
government,
“or
international
organization”).
Whether to apply certain laws equally to foreign
governments and international organizations is, of
course, a policy choice left to Congress. Courts, by
contrast, do not make policy choices in construing
statutes. See generally Husted v. A. Philip Randolph
Inst., 138 S. Ct. 1833, 1848 (2018) (observing that
“case presents a question of statutory interpretation,
not a question of policy”).

App-23
Ng nevertheless argues that the U.N. should be
treated as a government outside the scope of § 666 to
avoid the “international conflict” that could arise
because that statute—by contrast to the FCPA—can
apply to “both the payor and the recipient of a bribe,”
the latter of whom may be a foreign government
official or diplomat. Appellant Br. at 22 (emphasis in
original). We are not persuaded. As we observed in
Bahel, the law already provides a comprehensive
framework for affording government officials and
diplomats immunity from prosecution. See United
States v. Bahel, 662 F.3d at 623-26 (discussing
Diplomatic Relations Act, 22 U.S.C. § 254d, the
Convention on Privileges and Immunities of the U.N.,
Feb. 13, 1946, 21 U.S.T. 1418, and the International
Organization Immunities Act, 22 U.S.C. § 288a). 19
Moreover, within that framework, certain limitations and
exceptions apply. For example, in Bahel, the U.N. itself waived
the immunity of its employee. See 662 F.3d at 623-26; 22 U.S.C.
§ 288d(b). Further, diplomats who are citizens or permanent
residents of the United States do not enjoy general diplomatic
immunity. Rather, they are entitled to immunity only in the
performance of their duties. See Vienna Convention on
Diplomatic Relations (“VCDR”), April 18, 1961, 23 U.S.T. 3227,
Art. 38(1) (“[A] diplomatic agent who is a national of or
permanently resident in that State shall enjoy immunity from
jurisdiction, and inviolability, in respect of official acts performed
in the exercise of his functions.”); 22 U.S.C. § 254d (incorporating
VCDR); U.N. Manual of Protocol, Section VI (stating that
“diplomatic privileges and immunities are not granted to
members of diplomatic personnel who are citizens or permanent
residents of the United States”); see also Memorandum and
Order, United States v. Lorenzo, 15-cr-706 (VSB), Dkt. No. 155
(S.D.N.Y. Feb. 6, 2016) (holding that Lorenzo, as a U.S. citizen,
could claim diplomatic immunity with respect to official acts
only). Thus, far from supporting Ng’s urged narrowing of § 666 to
19

App-24
D. The Federalism Concerns Informing
Nixon v. Missouri Municipal League Are
Not Present Here

Ng maintains that if Congress intended for § 666
to prohibit bribes pertaining to public, as well as
private, organizations, it was required to say so
explicitly. In support, he cites Nixon v. Missouri
Municipal League, 541 U.S. 125 (2004), wherein the
Supreme Court construed the undefined phrase “any
entity” in a preemption provision of the
Telecommunications Act not to apply to political
subdivisions of a state. See 47 U.S.C. § 253(a) (“No
State or local statute or regulation, or other State or
local legal requirement, may prohibit or have the
effect of prohibiting the ability of any entity to provide
any interstate or intrastate telecommunications
service” (emphasis added)). Nixon explained that
“[w]hile an ‘entity’ can be either public or private,
there is no convention of omitting the modifiers ‘public
and private’ when both are meant to be covered.”
Nixon v. Mo. Mun. League, 541 U.S. at 132 (citations
omitted). From this, Ng urges us to conclude from the
absence of such modifiers for the word “organization”
in § 666 that the word presumptively does not reach
both “public and private” legal persons.
This argument fails to persuade because Nixon
used “public and private” to distinguish between
government and non-government entities in
circumstances where the animating concern was
exclude all public international organizations, the very
limitations on U.N. diplomats’ and employees’ immunity indicate
that international comity demands no such categorical
construction.

App-25
federalism—i.e., the constitutional principle for
distributing “power as between the Nation and the
States.” Staub v. City of Baxley, 355 U.S. 313, 325-26
(1958). For reasons explained supra at Section I.B.,
from the context in which “organization” is used in
§ 666, we construe the word not to include government
entities, thereby removing the federalism concern
informing the Nixon decision.
In Nixon, a Missouri law stated that “[n]o political
subdivision of this state shall provide or offer for
sale . . . a telecommunications service . . . for which a
certificate of service authority is required.” Missouri
Rev. Stat. § 392.410(7) (emphasis added); see Nixon v.
Mo. Mun. League, 541 U.S. at 129. The Court
addressed whether such legislation was preempted by
the Telecommunications Act’s reference to “any
entity.” 47 U.S.C. § 253(a) (emphasis added). Nixon
concluded that it was not, relying on Gregory v.
Ashcroft, 501 U.S. 452 (1991), which holds that
Congress must speak with particular clarity when its
intent is to constrain traditional state authority to
order its own government. In sum, federalism
compelled a conclusion that, without a “public and
private” modifier, § 253(a)’s use of the term “any
entity” was insufficient to make clear Congress’s
intent to preclude state legislation pertaining to its
own political subdivisions. See Nixon v. Mo. Mun.
League, 541 U.S. at 140 (referencing “working
assumption that federal legislation threatening to
trench on the States’ arrangements for conducting
their own government should be treated with great
skepticism, and read in a way that preserves a State’s
chosen disposition of its own power, in the absence of
the plain statement Gregory requires”). But nothing in

App-26
Nixon suggests that Congress must use such modifiers
to give words that do not reference government
entities—such as “organization” in § 666—their
natural broad effect.
Thus, even assuming arguendo that Congress’s
extension of § 666 protection to state and local
governments could implicate federalism, Congress
here satisfied Nixon and Gregory by expressly stating
its intent to reach such governments in the statutory
phrase, “or of a State, local, or Indian tribal
government.” 18 U.S.C. § 666(a)(1), (2); see id.
§ 666(d)(4) (defining “State”); cf. Salinas v. United
States, 522 U.S. at 60 (observing, in the case of § 666
conviction, that Gregory’s federalism principle of
statutory construction does “not apply when a statute
[is] ambiguous”). It is because statutory text making
explicit Congress’s intent to reach certain
governments cannot be superfluous that we construe
the word “organization” not to reach governments,
state
or
otherwise.
Nevertheless,
because
“organization” is broadly defined by 1 U.S.C. § 1 and
18 U.S.C. § 18, we conclude that the word otherwise
includes all non‐government legal persons, including
public international organizations such as the U.N.,
within § 666’s protection. That conclusion presents no
federalism concern and, thus, we do not understand
Nixon to require a “public and private” modifier to give
“organization” the full reach of its statutory definition.
Accordingly, we reject Ng’s Nixon‐based challenge to
his § 666 convictions.

App-27
E. Statutory History Does Not Require
Construing § 666 To Exclude Public
International Organizations
Ng maintains that the statutory histories of § 666
(enacted in 1984) and the FCPA (enacted in 1977 and
as amended in 1998) compel limiting the former’s use
of “organization” to private entities. Specifically, he
points to the 1998 amendment’s addition of “public
international organizations” to the FCPA’s definition
of “foreign officials” whose bribery violates that law.
See International Anti-Bribery and Fair Competition
Act of 1998, P.L. 105-366, sec. 3(c), 112 Stat. 3302,
3305 (codified as amended 15 U.S.C. §§ 78dd-2(h)(2),
78dd-3(f)(2)). 20 Ng argues that this amendment would

Two provisions of the FCPA are relevant to this appeal. The
first, entitled “Prohibited foreign trade practices by domestic
concerns,” states in pertinent part as follows:
20

(a) It shall be unlawful for any domestic
concern . . . or for any officer, director, employee, or
agent of such domestic concern . . . to make use of the
mails or any means or instrumentality of interstate
commerce corruptly in furtherance of an offer,
payment, promise to pay, or authorization of the
payment of any money, or offer, gift, promise to give,
or authorization of the giving of anything of value to—
(1)

any foreign official for purposes of—
(A) (i) influencing any act or decision of such
foreign official in his official capacity, (ii)
inducing such foreign official to do or omit to
do any act in violation of the lawful duty of
such official, or (iii) securing any improper
advantage
(B) inducing such foreign official to use his
influence with a foreign government . . . to

App-28
have been unnecessary if such organizations were
already included within the term “organization,” as
used in § 666. The argument fails to persuade. The
affect or influence any act or decision of such
government or instrumentality,
in order to assist such domestic concern in
obtaining or retaining business for or with, or
directing business to, any person.
...
(h)

For purposes of this section:
...
(2) (A)
The term “foreign official” means any
officer or employee of a foreign government,
or
any
department,
agency,
or
instrumentality thereof, or of a public
international organization, or any person
acting in an official capacity for or on behalf
of such government or department, agency,
or instrumentality, or for or on behalf of any
such public international organization.
(B) For purposes of subparagraph (A), the
term “public international organization”
means—
(i) an
organization
that
is
designated
by
Executive
order
pursuant to section 288 of title 22; or
(ii)
any
other
international
organization that is designated by the
President by Executive order for the
purposes of this section . . . .

15 U.S.C. § 78dd-2 (emphasis added).
A second FCPA section, entitled “Prohibited foreign trade
practices by persons other than issuers or domestic concerns,”
prohibits the same conduct when engaged in by any person “while
in the territory of the United States.” Id. § 78dd-3(a).

App-29
presumption against surplusage is a canon for
construing the text of a single statute. See generally
Marx v. Gen. Revenue Corp., 568 U.S. at 386
(observing that canon against surplusage is strongest
when interpretation would render superfluous
another part of “same statutory scheme”); Schiller v.
Tower Semiconductor Ltd., 449 F.3d 286, 301 (2d Cir.
2006) (observing that canon against surplusage
pertains within single statutory provision, not across
provisions). As long as Congress does not run afoul of
the Double Jeopardy Clause, it is not required to
address criminal conduct—such as corruption within
public international organizations—through only a
single statute. See United States v. Garavito-Garcia,
827 F.3d 242, 251 & n.58 (2d Cir. 2016) (rejecting
double jeopardy challenge and noting that overlapping
statutes are not unusual); Conn. Nat’l Bank v.
Germain, 503 U.S. 249, 253 (1992) (“Redundancies
across statutes are not unusual . . . and so long as
there is no positive repugnancy between two laws, a
court must give effect to both.” (internal quotation
marks and citation omitted)).
Moreover, while certain conduct—as in this
case—may violate both the FCPA and § 666, the
statutes are not invariably duplicative. Section 666
focuses on the integrity of federal funding and, thus,
requires proof of such receipt by the public
international organization. The FCPA, however,
applies to any entity designated a public international
organization as provided in 15 U.S.C. §§ 78dd-2(h)(2),
78dd-3(f)(2), without regard to its receipt of federal
money. Further, while both § 666 and the FCPA
prohibit domestic concerns from paying bribes to
officials of public international organizations, the

App-30
former statute also prohibits non-domestic concerns
from paying such bribes, organization officials from
soliciting or receiving such bribes, and any theft or
embezzlement from such organizations. Were we to
construe “organization” in § 666 as categorically
limited to private organizations on the ground that the
FCPA now addresses bribes by U.S. concerns to
officials of foreign international organizations, the
result would be to leave much of the criminal activity
proscribed by § 666—and not covered by the FCPA—
unaddressed as pertains to public international
organizations. Nothing in the history of the statutes
persuades us that was ever Congress’s intent.
In sum, where, as here, a concern for statutory
superfluousness compels only that the word
“organization,” as used in § 666, be construed to
exclude government entities, there is no reason for
this court also to exclude non-government public
international organizations, such as the U.N., from
the broad scope of that word as defined in 1 U.S.C. § 1
and 18 U.S.C. § 18. Accordingly, here, as in Bahel, we
conclude that § 666 prohibits bribery pertaining to
U.N. officials. See United States v. Bahel, 662 F.3d at
629-30.
II. The McDonnell Challenge
Before the district court, the prosecution argued
that the quid pro quo elements of § 666 and the FCPA
are not limited to “official acts” as defined in the
general bribery statute, see 18 U.S.C. § 201(a)(3), 21
21 The general bribery statute proscribes giving, offering or
promising anything of value to a “public official,” “with intent—
(A) to influence any official act.” 18 U.S.C. § 201(b)(1). The statute
defines “public official” to mean any officer or employee of the

App-31
and as construed by the Supreme Court in McDonnell
v. United States, 136 S. Ct. 2355. The argument finds
support in this court’s decision in United States v.
Boyland, 862 F.3d 279, 291 (2d Cir. 2017) (holding
that McDonnell standard does not apply to § 666,
which “is more expansive than § 201”). The district
court nevertheless charged the jury that, as to the
§ 666 charges—but not the FCPA charges—the
government was required to prove that Ng “acted with
the intent to obtain ‘an official act’ from those agents
of the U.N. to whom he had given or offered something
of value.” Trial Tr. at 4243. On appeal, Ng argues, as
he did below, that FCPA bribery, as well as § 666
bribery, requires proof of an official act satisfying the
McDonnell standard; that the district court’s officialact instruction on § 666 bribery failed to satisfy that
standard; and that the evidence was insufficient in
any event to satisfy the McDonnell standard.
We review a challenged jury instruction not in
isolation but “as a whole to see if the entire charge
delivered a correct interpretation of the law” or,
rather, misled the jury as to the correct legal standard
or otherwise failed adequately to inform it on the
applicable law. United States v. Silver, 864 F.3d 102,
118 (2d Cir. 2017) (internal quotation marks omitted),
United States, or a “person acting for or on behalf of” the federal
government or a juror. Id. § 201(a)(1). It defines “official act” as,
any decision or action on any question, matter, cause,
suit, proceeding or controversy, which may at any time
be pending, or which may by law be brought before any
public official, in such official’s official capacity, or in
such official’s place of trust or profit.
Id. § 201(a)(3).

App-32
cert. denied, 138 S. Ct. 738 (2018). Even where
charging error is identified, however, we will not
reverse a conviction if the government can show
harmlessness, i.e., show that it is “clear beyond a
reasonable doubt that a rational jury would have
found the defendant guilty absent the error.” United
States v. Botti, 711 F.3d 299, 308 (2d Cir. 2013)
(internal quotation marks omitted); see Neder v.
United States, 527 U.S. 1, 15 (1999); Fed. R. Crim. P.
52(a).
As to sufficiency, a defendant mounting such a
challenge “bears a heavy burden.” United States v.
Heras, 609 F.3d 101, 105 (2d Cir. 2010) (internal
quotation marks omitted). That is because “a
reviewing court must consider the evidence ‘in the
light most favorable to the prosecution’ and uphold the
conviction if ‘any rational trier of fact could have found
the essential elements of the crime beyond a
reasonable doubt.’” United States v. Aguilar, 585 F.3d
652, 656 (2d Cir. 2009) (quoting Jackson v. Virginia,
443 U.S. 307, 319 (1979)) (emphasis in Jackson).
Under this “stern standard,” a court cannot substitute
its own judgment for that of the jury as to the weight
of the evidence and the reasonable inferences to be
drawn therefrom. United States v. MacPherson, 424
F.3d 183, 187 (2d Cir. 2005). Rather, it may reverse a
guilty verdict only if “evidence that the defendant
committed the crime is nonexistent or so meager that
no reasonable jury could find guilt beyond a
reasonable doubt.” Id. (internal quotation marks
omitted).
Applying these principles here, we reject Ng’s
McDonnell challenge because (1) § 201(a)(3)’s

App-33
definition of “official act,” which informs the
McDonnell standard, does not delimit the quid pro quo
elements of § 666 and FCPA bribery; and (2) to the
extent the district court erroneously charged an
“official act” instruction as to Ng’s § 666 crimes, that
error was harmless beyond a reasonable doubt.
A. The McDonnell Standard Does not Apply
to § 666 or the FCPA
1.

The McDonnell Standard

In McDonnell v. United States, a former Governor
of Virginia was convicted of honest services fraud, see
18 U.S.C. §§ 1343, 1349; and Hobbs Act extortion, see
id. § 1951(a), based on his alleged acceptance of bribes,
see McDonnell v. United States, 136 S. Ct. at 2365. 22
At trial, the parties agreed that bribery would be
defined for the jury according to the general federal
bribery statute, which in relevant part required proof
that the Governor had “committed or agreed to commit
an ‘official act’ in exchange for” undisputed loans and
gifts. Id. (quoting 18 U.S.C. § 201). At issue was
whether “arranging a meeting, contacting another
public official, or hosting an event—without more—
concerning any subject, including a broad policy issue
such as Virginia economic development,” qualified as
an “official act” as defined in § 201(a)(3). Id. at 2367.
In holding that these actions did not, the Supreme

As McDonnell observed, precedent had construed “honest
services fraud to forbid ‘fraudulent schemes to deprive another of
honest services through bribes or kickbacks,’” 136 S. Ct. at 2365
(quoting Skilling v. United States, 561 U.S. 358, 404 (2010)); and
“Hobbs Act extortion to include ‘taking a bribe,’” id. (quoting
Evans v. United States, 504 U.S. 255, 260, 269 (1992)).
22

App-34
Court identified in the statutory text two
requirements to prove an “official act” under § 201.
First, the Government must identify a “‘question,
matter, cause, suit, proceeding or controversy,’” that
(a) is “‘pending’” or that “‘may by law be brought before
[a] public official’”; and (b) involves “a formal exercise
of governmental power” similar in nature to “a
lawsuit, hearing, or administrative determination.”
Id. at 2368 (quoting § 201(a)(3)). The Court
interpreted a “pending” matter as “the kind of thing
that can be put on an agenda, tracked for progress,
and then checked off as complete.” Id. at 2369. A
matter that “may by law be brought” is “something
within the specific duties of an official’s position.” Id.
“Second, the Government must prove that the
public official made a decision or took an action ‘on’
that question, matter, cause, suit, proceeding, or
controversy, or agreed to do so.” Id. at 2368 (quoting
§ 201(a)(3)). Such a decision or action could “include
using [one’s] official position to exert pressure on
another official to perform an ‘official act,’ or to advise
another official, knowing or intending that such advice
will form the basis for an ‘official act’ by another
official.” Id. at 2372. But, without more, “[s]etting up
a meeting, talking to another official, or organizing an
event (or agreeing to do so)” are not official acts—
although such actions “could serve as evidence of an
agreement to take an official act.” Id. at 2371-72; see
United States v. Silver, 864 F.3d at 116-17 (detailing
two-part test for “official act” identified in McDonnell);
United States v. Boyland, 862 F.3d at 289-90 (same).
Applying these principles to the Governor’s case,
the Supreme Court concluded that the jury charge on

App-35
the “official act” element was “significantly
overinclusive” because it failed to instruct on “three
important qualifications.” McDonnell v. United States,
136 S. Ct. at 2374. 23 Specifically, the charge should
have instructed the jury,
(a) that it “must identify a ‘question, matter,
cause, suit, proceeding or controversy’
involving the formal exercise of governmental
power”;
(b) that “the pertinent ‘question, matter,
cause, suit, proceeding or controversy’ must
be something specific and focused that is
‘pending’ or ‘may by law be brought before
any public official’”; and
(c) that the Governor “made a decision or took
an action—or agreed to do so—on the
identified ‘question, matter, cause, suit,
proceeding, or controversy,’” and that “merely
arranging a meeting or hosting an event to
discuss a matter does not count as a decision
or action on that matter.”
Id. at 2374-75 (emphasis in original) (quoting
§ 201(a)(3)). The Court concluded that these omissions
could not be deemed harmless because, absent such
instructions, and in light of the prosecution’s
In McDonnell, the jury was instructed that “official action”
included “‘actions that have been clearly established by settled
practice as part of a public official’s position, even if the action
was not taken pursuant to responsibilities explicitly assigned by
law.’” 136 S. Ct. at 2373 (quoting jury charge). Further, “‘official
actions may include acts that a public official customarily
performs,’ including acts ‘in furtherance of longer-term goals,’ or
‘in a series of steps to exercise influence or achieve an end.’” Id.
23

App-36
arguments, the jury might have convicted the
Governor based on conduct that is not unlawful, such
as merely holding meetings, taking calls, and hosting
events. See id. at 2375. Accordingly, the Court ordered
vacatur and remand. See id.; accord United States v.
Silver, 864 F.3d at 112, 117-18 (identifying error in
similarly unqualified jury charge instructing that
“‘[o]fficial action includes any action taken or to be
taken under color of official authority’” (emphasis in
original) (quoting jury instruction)).
2.

Section 666 and FCPA Bribery Are
Not Textually Limited to “Official
Acts” as Defined in § 201(a)(3) and
McDonnell

No uniform definition applies to the word “bribe”
as proscribed in the federal code. See United States v.
Zacher, 586 F.2d 912, 915 (2d Cir. 1978).
Nevertheless, at least as to the giver, bribery is
generally understood to mean the corrupt payment or
offering of something of value to a person in a position
of trust with the intent to influence his judgment or
actions. See Perrin v. United States, 444 U.S. 37, 4346 (1979). 24 It is this quid pro quo element—”a specific
Perrin traces the “ordinary meaning of the term ‘bribery’”
from its earliest common law application in Coke’s writings “only
to the corruption of judges,” to its expansion by the time of
Blackstone to “other person[s] concerned in the administration of
justice.” 444 U.S. at 42-43 (internal quotation marks omitted). By
the 19th century, bribery commonly penalized the corruption of
voters, witnesses, and any public official. See id. By the mid-20th
century, federal and state statutes also proscribed the
commercial bribery of employees and agents in particular areas.
See id. at 43. As this court has observed, the “common thread”
running through these formulations of bribery is “the element of
24

App-37
intent [corruptly] to give . . . something of value in
exchange” for action or decision that distinguishes
bribery from the related crime of illegal gratuity.
United States v. Sun-Diamond Growers of Cal., 526
U.S. 398, 404-05 (1999) (emphasis in original)
(explaining that gratuity “may constitute merely a
reward” for some past or future act).
In addressing various manifestations of bribery
under the federal criminal law, Congress may, of
course, define the particular quids and quos
prohibited. In generally proscribing the bribery of
federal officials, Congress has prohibited corruptly
giving such an official “anything of value” (the quid)
“to influence any official act” (the quo). 18 U.S.C.
§ 201(b)(1)(A) (emphasis added). Congress has limited
“official act,” as used in § 201(b)(1)(A), (2)(A), however,
to a statutory definition. See id. § 201(a)(3). And, as
just discussed, this text is the source of the McDonnell
standard. See supra at Section II.A.1.
But not all federal bribery statutes identify
“official act,” much less official act as defined in
§ 201(a)(3), as the necessary quo for bribery. Indeed,
the general bribery statute itself proscribes corruptly
giving anything of value in exchange for other quos: to
influence a public official to commit fraud, see 18
U.S.C. § 201(b)(1)(B); to induce an official to violate a
public duty, see id. § 201(b)(1)(C); to influence sworn
testimony, see id. § 201(b)(3). It would be superfluous
corruption, breach of trust, or violation of duty.” United States v.
Zacher, 586 F.2d at 915; see United States v. Esperdy, 285 F.2d
341, 342 (2d Cir. 1961) (“Bribery in essence is an attempt to
influence another to disregard his duty while continuing to
appear devoted to it or to repay trust with disloyalty.”).

App-38
to identify these quos distinctly if they were mere
variations on the statute’s defined “official act.” See
Marx v. Gen. Revenue Corp., 568 U.S. at 386
(discussing
presumption
against
statutory
superfluousness); United States v. Valente, 915 F.3d at
923.
Turning to the statutes here at issue, Congress
identifies still different quos in proscribing bribery in
other contexts. Section 666, which prohibits bribery
concerning programs receiving federal funding, makes
it a crime corruptly to give a person anything of value
(the quid) “with intent to influence . . . an agent of an
organization or of a State, local or Indian tribal
government,” any part of which receives federal
funding, “in connection with any business,
transaction, or series of transactions of such
organization . . . involving anything of value of $5,000
or more” (the quo). 18 U.S.C. § 666(a)(2). The FCPA,
which addresses certain foreign trade practices,
makes it a crime corruptly to give a foreign official
anything of value (again, the quid) for purposes of
(1) “influencing any act or decision of such foreign
official in his official capacity”; (2) “inducing such
foreign official to do or omit to do any act in violation
of the lawful duty of such official,” (3) “securing any
improper advantage,” or (4) “inducing such foreign
official to use his influence with a foreign government
or instrumentality thereof to affect or influence any
act or decision of such government or instrumentality”
(the quos). 15 U.S.C. §§ 78dd-2(a)(1), 78dd-3(a)(1). The
FCPA further requires that each of these quos serves
a particular purpose, i.e., to assist the giver in
“obtaining,” “retaining,” or “directing” business. Id.

App-39
From these textual differences among various
bribery statutes, we conclude that the McDonnell
“official act” standard, derived from the quo
component of bribery as defined by § 201(a)(3), does
not necessarily delimit the quo components of other
bribery statutes, such as § 666 or the FCPA.
This court has already so held with respect to
§ 666 bribery, reasoning that the language of that
statute “is more expansive than § 201.” United States
v. Boyland, 862 F.3d at 291. As Boyland observed,
§ 201(b)(1)(A) bribery pertains only to “‘official acts,’”
a term statutorily “limited to acts on pending
‘questions, matters, causes suits, proceedings, or
controversies.’” Id. (brackets omitted) (quoting 18
U.S.C. § 201(a)(3)); see supra at note 21. By contrast,
§ 666 prohibits bribery “‘in connection with any
business, transaction, or series of transactions of [an]
organization, government, or agency.’” United States
v. Boyland, 862 F.3d at 291 (quoting and emphasizing
18 U.S.C. § 666(a)(1)(B) (prohibiting solicitation of
bribe)); see 18 U.S.C. § 666(a)(2) (prohibiting offering
or paying bribe in same circumstances). Nowhere does
§ 666 mention “official acts.” Nowhere does it place
any definitional limits on the business or transactions
to be influenced—beyond requiring them to be “of” the
organization receiving more than $10,000 in federal
funding and to have a “value of $5,000 or more.” 18
U.S.C. § 666(a)(2). Further, the bribery proscribed by
§ 666 need not pertain directly to the business or
transactions of an organization receiving federal
funding; it need only be “in connection with” it. Id.; see
Salinas v. United States, 522 U.S. at 56-57 (stating
that § 666’s “expansive, unqualified language” as to
“bribes forbidden” “undercuts the attempt to impose

App-40
. . . narrowing construction”); see also United States v.
Robinson, 663 F.3d 265, 273-74 (7th Cir. 2011)
(holding that “broad language” of § 666 reaches
bribery intended to influence even “intangible”
business of federally funded organization). Thus,
Boyland holds that McDonnell’s “official act” standard
for the quo component of bribery as proscribed by
§ 201 does not apply to the “more expansive” language
of § 666. United States v. Boyland, 862 F.3d at 291; see
also United States v. Thiam, No. 17-2765, 2019 WL
3540276, at *3 (2d Cir. August 5, 2019) (holding that
McDonnell analysis does not apply to provisions of
Guinea’s Penal Code that, like § 666, “plainly cover
more than official acts”). 25
Ng argues that Boyland is necessarily limited by United
States v. Skelos, 707 F. App’x 733 (2d Cir. 2017), which
summarily vacated a § 666 conviction based on McDonnell error.
He is wrong. First, summary decisions are non‐precedential and,
thus, cannot provide controlling “limits” on published rulings. See
Jackler v. Byrne, 658 F.3d 225, 244 (2d Cir. 2011); 2d Cir. Local
R. 32.1.1(a). Second, and in any event, a subsequent panel of this
court is bound by prior precedent unless and until reversed by
the Supreme Court or by this court sitting en banc, see Doscher v.
Sea Port Grp. Secs., LLC, 832 F.3d 372, 378 (2d Cir. 2016),
neither of which has occurred with respect to Boyland. Third,
Skelos presented unique facts distinguishable from this case. In
Skelos, the government argued that the state senator defendant’s
corrupt intent to be influenced in the performance of official acts
could be found from his arranging for or engaging in certain
meetings. See United States v. Skelos, 707 F. App’x at 737-38.
Such conduct could not qualify as an “official act” under the
McDonnell standard, and the Skelos jury had not been charged
as to how the quo element of § 666 might nevertheless be found
without an official act and without raising the constitutional
concerns identified in McDonnell. In these circumstances, this
court could not confidently conclude beyond a reasonable doubt
25

App-41
Boyland’s reasoning applies with equal force to
the FCPA, which prohibits giving anything of value in
exchange for any of four specified quos, identified
supra at note 20. While the first FCPA quo referencing
an “act or decision” of a “foreign official in his official
capacity” might be understood as an official act, the
FCPA does not cabin “official capacity” acts or
decisions to a definitional list akin to that for official
acts in § 201(a)(3). 15 U.S.C. §§ 78dd-2(a)(1)(A)(i);
78dd-3(a)(1)(A)(i). Nor does it do so for acts or
omissions that violate an official’s “duty,” or that affect
or influence the act or decision of a foreign
government. Id. §§ 78dd-2(a)(1)(A)(ii), (B); 78dd3(a)(1)(A)(ii), (B). Finally, the FCPA prohibits bribing
a foreign official to “secur[e] an improper advantage”
in obtaining, retaining, or directing business, without
requiring that the advantage be secured by an official

that any properly charged, rational jury would necessarily return
a guilty verdict in the particular circumstances of that case. See
id.
By contrast, here we conclude, for reasons stated infra at
Section II.B. that the “official act” instruction given by the district
court on the § 666 charges, though unwarranted, satisfied the
McDonnell standard. Further, the government here never
suggested to the jury that setting up a meeting, taking a call, or
hosting an event, qualified as either the “official act” charged by
the district court or the “transaction” required by § 666. In fact,
at its request, the district court instructed the jury that such
evidence could not satisfy § 666. Finally, as explained infra at
Section II.A.3., this case presents no constitutional concerns.
Thus, as a matter of both law and fact, Skelos cannot be read
to limit Boyland’s holding that McDonnell’s “official act”
standard does not apply to § 666 or the FCPA. See also United
States v. Thiam, 2019 WL 3540276, at *3 n.15 (cabining Skelos).

App-42
act as limited by the § 201(a)(3) definition. Id. §§ 78dd2(a)(1)(A)(iii); 78dd-3(a)(1)(A)(iii).
Our conclusion that McDonnell’s “official act”
standard does not pertain to bribery as proscribed by
§ 666 and the FCPA finds support in decisions of our
sister circuits, which also recognize the McDonnell
standard to be grounded in the narrower text of
§ 201(a)(3), (b)(1)(A). See, e.g., United States v. Porter,
886 F.3d 562, 565 (6th Cir. 2018) (“In McDonnell, the
Supreme Court limited the interpretation of the term
‘official act’ as it appears in § 201, an entirely different
statute than the one at issue here [i.e., § 666].”);
United States v. Ferriero, 866 F.3d 107, 127-28 (3d Cir.
2017) (declining to apply McDonnell standard derived
from § 201 to state bribery), cert. denied, 138 S. Ct.
1031 (2018); see also United States v. Reed, 908 F.3d
102, 111 113 (5th Cir. 2018) (declining to apply
McDonnell to wire fraud conviction because
“troublesome concept of an ‘official act’” was not an
element of that crime, and further observing “fellow
circuits’ reluctance to extend McDonnell beyond the
context of honest services fraud and the [general]
bribery statute”); cf. United States v. Maggio, 862 F.3d
642, 646 n.8 (8th Cir. 2017) (declining to revisit
precedent holding that § 666 requires no nexus
between charged bribe and federal funding, explaining
“McDonnell had nothing to do with § 666”).
3.

Constitutional Concerns Do Not
Mandate Application of McDonnell’s
“Official Act” Standard to § 666 and
the FCPA

In urging otherwise, Ng argues that McDonnell’s
“official act” standard is dictated not only by the text

App-43
of § 201, but also by constitutional concerns—about
vagueness,
representative
government,
and
federalism—that pertain equally to § 666 and FCPA
bribery. See McDonnell v. United States, 136 S. Ct. at
2372-73. We are not persuaded.
a.

Vagueness

The void-for-vagueness doctrine, derived from the
Due Process Clause, see U.S. Const., amend. V,
instructs that a penal statute must “define the
criminal offense with sufficient definiteness that
ordinary people can understand what conduct is
prohibited and in a manner that does not encourage
arbitrary and discriminatory enforcement,” Kolender
v. Lawson, 461 U.S. 352, 357 (1983); accord United
States v. Demott, 906 F.3d 231, 237 (2d Cir. 2018).
While the vagueness of a statute implicating First
Amendment rights will be assessed on its face, where,
as here, no such rights are at issue, we assess the
vagueness of a challenged statute as applied to
defendant’s particular case. See Maynard v.
Cartwright, 486 U.S. 356, 361 (1988); United States v.
Holcombe, 883 F.3d 12, 17 (2d Cir. 2018). In doing so,
we are mindful that courts have uniformly rejected
vagueness challenges both to § 666 26 and to the

See United States v. Rosen, 716 F.3d 691, 699-701 (2d Cir.
2013) (rejecting vagueness challenge to quid pro quo element of
crimes of conviction, including § 666); United States v.
Brunshtein, 344 F.3d 91, 98 (2d Cir. 2003) (rejecting vagueness
challenge to federal-nexus requirement of § 666); United States
v. Crozier, 987 F.2d 893, 900 (2d Cir. 1993) (rejecting vagueness
challenge to mens rea requirement of § 666).
26

App-44
FCPA. 27 Ng’s vagueness challenges warrant no
different conclusion.
Section 666 prohibits corruptly giving anything of
value to any person with intent to influence or reward
an agent of an organization in connection with any
business or transaction of that organization having a
value of $5,000 or more. See supra at note 12. The
FCPA prohibits corruptly paying anything of value to
the officer or employee of a foreign international
organization for purposes of, inter alia, influencing
any act or decision of such person in his official
capacity in order to obtain, retain or direct business.
See supra at note 20. The language of these statutes is
adequate to alert a reasonable person to the illegality
of Ng’s conduct here and to avoid arbitrary
enforcement of these laws against him.
The trial evidence showed that over a period of
five years, Ng paid more than a million dollars to U.N.
Ambassadors Lorenzo and Ashe (the latter of whom
also served for a time as President of the General
Assembly) in order for them to use their influence (and
that of other U.N. employees) to procure a formal
contract with the U.N. designating Ng’s Macau
Convention Center as the permanent site for
UNOSSC’s annual Expo. Ng can hardly claim that he
lacked notice that such payments were things “of
value,” 18 U.S.C. § 666(a)(2); 15 U.S.C. §§ 78dd-2(a),
27 See United States v. Esquenazi, 752 F.3d 912, 929 (11th Cir.
2014) (rejecting vagueness challenge to FCPA definition of
“foreign official” to include any “instrumentality” of foreign
government); United States v. Kay, 513 F.3d 432, 441-42 (5th Cir.
2007) (rejecting vagueness challenge to “obtaining or retaining”
business requirement of FCPA).

App-45
78dd-3(a); that a U.N. contract was a “transaction,” 18
U.S.C. § 666(a)(2), or “business,” 15 U.S.C. §§ 78dd2(a), 78dd-3(a), of the organization; or that Lorenzo
and Ashe, as ambassadors accredited to the U.N., or
at least Ashe, as President of the General Assembly,
was an “agent,” 18 U.S.C. § 666(a)(2), (d)(1), or
“official,” 15 U.S.C. §§ 78dd-2(a)(1), 78dd-3(a)(1), of
that organization.
Certainly, Lorenzo testified that he understood
that Ng was corruptly paying him to circumvent the
organization’s established contract process. In these
circumstances, Ng does not, and cannot, claim that a
reasonable “ordinary person”—as payor—would not
have had the same awareness. Kolender v. Lawson,
461 U.S. at 357 (reviewing vagueness challenge with
reference to whether “ordinary people can understand
what conduct is prohibited”); see Copeland v. Vance,
893 F.3d 101, 114 (2d Cir. 2018) (noting that whether
“ordinary person” has sufficient notice of prohibited
conduct is “objective inquiry” (internal quotation
marks omitted)). Lorenzo further testified to
communications between Ng and Ashe confirming a
quid pro quo arrangement between these men: Ashe
conditioned his support for Ng’s desired contract on
Ng’s financial support both for Ashe personally and for
some of his projects as President of the General
Assembly. Ng’s own awareness that payments he
made in these circumstances were unlawful, is evident
from his efforts at concealment, notably, through
sham contracts to Lorenzo’s brother and a no-show job
for Ashe’s wife. It can also be inferred from Ng’s
direction that Lorenzo and Ashe use their unique
ambassadorial authority not only to place a document
in the official U.N. record but also, thereafter, to

App-46
tamper with that document to Ng’s advantage. Ng’s
knowledge that he was engaged in prohibited quid pro
quo bribery is further evident from his threat to cancel
further payments to Lorenzo unless he quickly
secured the desired formal U.N. designation, as well
as from Ng’s further cash payment to Ashe as an
added inducement to secure the UNOSSC
designation. Indeed, Ng can hardly claim that he
lacked notice that he was engaged in unlawful bribery
when, within days of his meeting Ashe’s demand for a
$200,000 “concert” payment, UNOSSC advised him
that, at Ashe’s behest, the desired contract would at
last be finalized.
In sum, as applied to this case, § 666 and the
FCPA both provide adequate notice to a reasonable
person in Ng’s position that the payments made to
Lorenzo and Ashe were unlawful bribery, and present
no risk of arbitrary enforcement. See Mannix v.
Phillips, 619 F.3d 187, 197 (2d Cir. 2010) (“The
touchstone of the notice prong is whether the statute,
either standing alone or as construed, made it
reasonably clear at the relevant time that the
defendant’s conduct was criminal.” (internal quotation
marks omitted)). Accordingly, no application of
McDonnell’s “official act” standard is necessary to
avoid unconstitutional vagueness.
b.

Representative Government and
Federalism

Ng next argues that our particular federalist and
representative
government
structure
compels
application of McDonnell’s official act standard in this
case. McDonnell observed that the “basic compact
underlying representative government assumes that

App-47
public officials will hear from their constituents and
act appropriately on their concerns.” McDonnell v.
United States, 136 S. Ct. at 2372 (emphasis in
original). Thus, the “official act” element of § 201 could
not be construed so broadly that government officials
“might wonder whether they could respond to even the
most commonplace requests for assistance, and
citizens with legitimate concerns might shrink from
participating in democratic discourse.” Id. Nor could it
be construed to invite unauthorized federal
interference in states’ ability to set standards of good
government. See id. at 2373; see generally Gregory v.
Ashcroft, 501 U.S. at 460 (recognizing that sovereign
defines itself “[t]hrough the structure of its
government, and the character of those who exercise
government authority”); The Federalist No. 51, at 323
(James Madison) (C. Rossiter ed., 1961) (“In the
compound republic of America, the power surrendered
by the people is first divided between two distinct
governments, and then the portion allotted to each
subdivided among distinct and separate departments.
Hence a double security arises to the rights of the
people. The different governments will control each
other, at the same time that each will be controlled by
itself.”).
Those concerns, however, do not pertain to the
FCPA. None of its prohibitions operate within our
federalist structure of representative government.
Rather, it prohibits bribery with respect to officials of
foreign governments or public international
organizations, whose structure is no part of our
constitutional concern.

App-48
The same conclusion applies for § 666 as applied
to nongovernment “organizations.” Not only is the
U.N. a public international organization outside our
federalist structure, but also, it is not an entity subject
to the “basic compact” of representative government.
Its members are equal sovereigns, not elected
representatives.
U.N.
ambassadors
represent
sovereign nations, not an electorate, and owe no duty
to hear from or act on the requests of private persons.
To be sure, § 666 also proscribes bribery with
respect to the agents of State and local governments.
Thus, in generally construing its quid pro quo
prohibitions, we are respectful of federalism and
principles
of
representative
government.
Nevertheless, we conclude that McDonnell’s
constitutional concerns simply do not arise in the
context of that statute.
At issue in McDonnell was the general federal
bribery statute, 18 U.S.C. § 201, a broad construction
of which, when applied to State officials, risked
trenching on the States’ “prerogative to regulate the
permissible scope of interactions between state
officials and their constituents.” McDonnell v. United
States, 136 S. Ct. at 2373. The Supreme Court did not
hold that Congress necessarily lacked the power to
legislate in that area. See Gregory v. Ashcroft, 501 U.S.
at 460 (observing that “[a]s long as it is acting within
the powers granted it under the Constitution,
Congress may impose its will on the States”). It held
only that Congress had not expressly done so in § 201,
a statute that, by its terms, applies to federal officials,
but whose definition of bribery was borrowed by the
parties in McDonnell to delineate the charged honest

App-49
services fraud by a state Governor. It is in that context
that the Supreme Court declined to construe § 201
bribery in a way that disrupted the federalism
balance, particularly because “a more limited
interpretation of ‘official act’ is supported by both text
and precedent.” McDonnell v. United States, 136 S. Ct.
at 2373; see Gregory v. Ashcroft, 501 U.S. at 460
(stating that courts “must assume Congress does not
exercise lightly” its power to legislate in areas
“traditionally regulated by the States”).
Section 666 presents different text in a different
context. First, in § 666, Congress expressly states its
intent to reach bribery within State and local
governments insofar as they receive federal funding.
Thus, to this extent, it was expressly recalibrating the
federalism balance. Second, Congress does not use
intent to influence an “official act” to limit the bribery
proscribed; rather, § 666 more broadly prohibits
offering “‘anything of value’” to the agent of an
organization or State or local government “in
exchange for the influence or reward” in connection
with any business, transaction, or series of
transactions of the organization or government.
Salinas v. United States, 522 U.S. at 56. 28 Third, the
Section 666’s enactment was prompted by a circuit split as to
whether State, local, or organizational employees could be
considered “public officials” under 18 U.S.C. § 201(a). See Salinas
v. United States, 522 U.S. at 58 (collecting cases evidencing split).
Without waiting for the Supreme Court’s resolution of that issue
in Dixson v. United States, 465 U.S. 482, 490-97 (1984)
(construing “public officials,” as used in § 201(a) to include
corporate officers having operational responsibility for
administration of federal housing grant), Congress enacted § 666
“to extend federal bribery prohibitions to bribes offered to state
28

App-50
circumstances Congress does use to cabin the State,
local, and organizational bribery proscribed by § 666
are (a) the organization or government entity at issue
must receive more than $10,000 in federal funding
benefits over the course of a year, and (b) the business
or transaction intended to be influenced must have a
value of $5,000 of more. See 18 U.S.C. § 666(a), (b).
Given the ever-growing dependency of State and
local governments on federal funding, the limiting
effect of these requirements may appear minimal.
Nevertheless, Congress’s “power to keep a watchful
eye on [its] expenditures and on the reliability of those
who use public money” cannot be disputed; such power
“is bound up with congressional authority to spend in
the first place.” Sabri v. United States, 541 U.S. 600,
608 (2004). Thus, just as Congress did not sweep too
broadly by not requiring a nexus between the bribery
proscribed by § 666 and federal funding, see id. at 60506, it did not impermissibly intrude on a State’s own
policy choices when, in keeping watch on recipients of
federal funding, it did not limit § 666 bribery to the
“official act” definition of § 201(a)(3), see id. at 608
(stating that “Congress was within its prerogative to
protect [federal] spending objects from the menace of
local administrators on the take”); see also id. at 606
(observing, in rejecting urged nexus requirement, that
“[m]oney
is
fungible,
bribed
officials
are
and local [and organizational] officials employed by agencies
receiving federal funds.” Salinas v. United States, 522 U.S. at 58.
In doing so, however, Congress did not replicate § 201’s definition
of bribery, or even mention “official act.” Rather, it employed
“expansive, unqualified language, both as to the bribes forbidden
and the entities covered.” Id. at 56.

App-51
untrustworthy stewards of federal funds, and corrupt
contractors do not deliver dollar-for-dollar value”).
In sum, we conclude that no McDonnell “official
act” instruction was required for the § 666 and FCPA
crimes charged in this case because those statutes
define bribery more expansively than § 201(a)(3), the
textual source for the McDonnell standard, and
because none of the constitutional concerns identified
in
McDonnell—vagueness,
representative
government, federalism—requires limiting § 666 and
FCPA bribery to “official acts.”
Accordingly, because the McDonnell standard
does not apply to the text of either § 666 or the FCPA,
the district court did not err in failing to instruct the
jury on that standard for Ng’s FCPA crimes, and,
insofar as the district court did charge “official acts”
for Ng’s § 666 crimes, for reasons stated in the next
section of this opinion, we identify no McDonnell error
warranting vacatur in any event.
B. McDonnell Error in the Challenged § 666
Jury Charge Was Harmless
1.

The Charging Error

The district court charged the jury that to convict
Ng on any of the § 666 charges,
The government must prove that the
defendant acted with the intent to obtain “an
official act” from the agent or agents of the
United Nations to whom he gave or agreed to
give or offered something of value.
An official act is a decision or action that must
involve a formal exercise of power. It also must
be specific and focused on something that is

App-52
pending or may by law or rule be brought
before the agent. The decision or action may
include using the agent’s official position to
exert pressure on another official to perform
an official act or to advise another official,
knowing or intending that such advice will
form the basis for an official act by another
official.
Expressing support for an idea, setting up a
meeting, talking to another official, or
organizing an event or agreeing to do so
without more does not fit that definition of
official act. This is not to say that expressing
support for any idea, setting up a meeting,
hosting an event, or making a phonecall is
always an innocent act or is irrelevant. These
actions could serve as evidence of (1) an
agreement to take an official act, (2) an
attempt to use the agent’s official position to
exert pressure on another official to perform
an official act, or (3) an attempt to advise
another official knowing or intending that
such advice will form the basis of an official
act by another official.
Trial Tr. at 4243-44 (emphasis added).
Ng argues that the quoted instruction—
particularly the highlighted portion—was erroneous
because it conflates the two McDonnell requirements
for an official act. Whereas McDonnell states that it is
the identified “question, matter, cause, suit,
proceeding or controversy” component of an “official
act” that must involve the “formal exercise of
governmental power,” and be “something specific and

App-53
focused that is ‘pending’ or ‘may by law be brought
before any public official,’” McDonnell v. United
States, 136 S.Ct. at 2372-75, the district court here
instructed the jury that it was the “decision or action”
taken on such “question, matter, cause, suit,
proceeding or controversy” that must have these
attributes. Ng maintains this allowed the jury to
convict for any “specific action” that “‘focused on’
virtually anything that was pending or that the UN
might one day consider”—no matter how ill defined.
Appellant Br. at 42.
We identify charging error—but not for the reason
Ng argues. As just explained, the “official act”
requirement that McDonnell locates in § 201(a)(3) is
not a part of § 666. Thus, the district court should not
have charged “official act” at all as to the § 666 counts
in this case. It sufficed for the district court to charge
the requisite quid pro quo as it initially did:
[T]he government must prove beyond a
reasonable doubt . . . that the defendant gave
or agreed to give or offered something of value
to the agent with the intent to influence the
agent’s actions in connection with some sort
of business transaction of the United Nations.
Trial Tr. at 4242.
2.

Harmlessness

Insofar as the district court mistakenly charged
the jury that it was further required to find that the
action Ng intended to influence was an “official
action,” we conclude that the error was harmless
beyond a reasonable doubt. Where a jury returns a
guilty verdict on instructions requiring it to find
proved more than the law requires, a court can

App-54
generally conclude that the jury would also have
returned a guilty verdict on proper instructions
omitting the unwarranted element. That is the case
here. The jury, having found proved—in addition to all
the other elements of § 666—that Ng intended to
influence action amounting to an “official act,” we
easily conclude that it would have found that Ng
intended to influence action not limited by such a
heightened quid pro quo requirement. Cf. Musacchio
v. United States, 136 S. Ct. 709, 715 (2016) (“[W]hen a
jury instruction sets forth all the elements of the
charged crime but incorrectly adds one more element,
a sufficiency challenge should be assessed against the
elements of the charged crime, not against the
erroneously heightened command in the jury
instruction.”).
Nor is a different conclusion warranted because
Ng argues that the jury’s “official act” finding is the
product of a jury charge and evidence not satisfying
McDonnell. We need not here decide under what
circumstances, if any, harmless error can be identified
when a jury finds a defendant guilty based on an
additional, unnecessary element infected by such
purported McDonnell errors. Ng’s charging and
sufficiency challenges are meritless, and, thus, they
cannot deter a finding of harmless error in the giving
of an unwarranted McDonnell instruction. 29
As to charging error, the record belies Ng’s
conflation hypothesis. The pleadings, evidence, and
arguments all identify a single, overriding “question,
29 It is for this reason that we address Ng’s McDonnell
arguments. We cannot agree with our concurring colleague that
the exercise is unnecessary and merely academic.

App-55
matter, [or] cause” informing the alleged official
actions in this case: procurement of formal U.N.
designation of Ng’s Macau convention center as the
permanent site for the UNOSSC Expo. 30 This
objective undoubtedly presented a specific and focused
“question, matter, [or] cause,” requiring the formal
exercise of U.N. power to achieve Ng’s goal. See
McDonnell v. United States, 136 S.Ct. at 2374
(contrasting “nebulous” policy objective, such as
general “business and economic development,” which
would not qualify as official action, with question
whether to initiate particular research study, which
would). In these circumstances, we agree with the
government that no reasonable jury could identify a
decision or action on this question as focused, specific,
pending, and a formal exercise of U.N. power, without
also finding that the question exhibited these
attributes. Thus, any imprecision in the challenged
charge’s discussion as between the “question” and
“decision” requirements of the McDonnell standard
See, e.g., App’x 164-65 (stating, in Superseding Indictment,
that defendant’s “principal objective . . . was to obtain official
action from the UN with respect to a multi-billion dollar
conference center, . . . [i]n particular, . . . formal UN support for
the Macau Conference Center, including establishing the
[Center] as the permanent site of the annual UNOSSC Expo”);
Trial Tr. at 80 (stating, in prosecution opening, that “[y]ou will
see that each of the actions that these ambassadors took on [Ng’s]
behalf moved the defendant along a path to his ultimate goal of a
UN center in Macau”); id. at 652, 671 (Lorenzo testifying that
what Ng sought was “an official document from the United
Nations,” “a contract” for use of the Macau convention center); id.
at 3954 (stating, in prosecution summation, that defendant paid
bribes “in exchange for the ambassadors getting the UN to
approve a massive United Nations convention center in Macau”).
30

App-56
did not mislead or misinform the jury in finding an
“official act” in this case. 31
As for sufficiency, overwhelming record evidence,
much of it documented, allowed a reasonable jury to
find not only that Ng’s efforts to procure a U.N.
contract for his convention center presented a specific
and focused question, but also that the question was
one that could be—and was—brought before a U.N.
That conclusion is reinforced by the district court’s specific
instruction precluding the jury from finding an official act based
only on “[e]xpressing support for an idea, setting up a meeting,
talking to another official, or organizing an event or agreeing to
do so without more.” Trial Tr. at 4244; see supra at pp. 53-54.
McDonnell signals that such an instruction serves usefully to
cabin both the “question” and “decision” parts of the “official act”
test. See McDonnell v. United States, 136 S. Ct. at 2368
(acknowledging that “it may be difficult to define the precise
reach” of terms such as “‘question, matter, case, suit, proceeding
or controversy,’” but stating that “it seems clear that a typical
meeting, telephone call, or event arranged by a public official”
does “not sweep so broadly”); id. at 2371 (“Setting up a meeting,
hosting an event, or calling an official (or agreeing to do so)
merely to talk about a research study or to gather additional
information, . . . does not qualify as a decision or action on the
pending question of whether to initiate the study.”). In the
absence of any such instruction in McDonnell, and with the
government there urging the jury to find a § 201 “official act”
based only on meetings and calls, the Supreme Court concluded
that the charging error there could not be deemed harmless. See
id. at 2375. By contrast, where, as here, the alleged McDonnell
charging error is more one of imprecision than
mischaracterization, the evidence of a specific and focused
question is overwhelming, the district court specifically
safeguarded against the jury relying on meetings or calls to find
“official act,” and the government did not argue for such a finding,
we confidently conclude that Ng’s instructional challenge is
meritless.
31

App-57
official. Compelling evidence further showed that the
official, UNOSSC Director Zhou, exercised formal
organization power when, on December 25, 2014, “on
behalf of the United Nations,” he signed the Pro Bono
Agreement between Ng’s company SKI and UNOSSC.
App’x 1836-48. Whether or not the Agreement secured
all that Ng desired is beside the point. What matters
is that, by entering into such a contract on behalf of
the U.N., Zhou took an official action. Evidence
further proved that it was as a result of Ng’s payments
that Lorenzo and Ashe used their official positions at
the U.N. to influence Zhou to take that action. Not
only did Lorenzo so testify, but Zhou himself, in a June
13, 2014 letter to Lorenzo, specifically referenced
Ashe’s “support for Ng’s convention center in reporting
that UNOSSC was now ready to enter into a formal
agreement for SKI to host the 2015 Expo. App’x 1641.
The letter is dated only ten days after Ng complied
with Ashe’s request for $200,000. And in a February
2, 2015 letter formally inviting Ng’s companies to host
the U.N.’s 2015 Expo, Zhou stated that General
Assembly President Ashe had “been calling upon my
office to step up the efforts to support the early
implementation of . . ., in particular, the Permanent
Expo and Meeting Centre in Macao.” Id. at 1525.
Other record evidence also shows how Lorenzo
and Ashe used their official positions at the U.N. to
enhance the likelihood that Zhou would follow their
advice to have the U.N. enter into a contract with Ng.
This began with the working sessions that Lorenzo
organized for U.N. ambassadors so that he and Ashe
could then place a letter into the General Assembly
record—something only U.N. ambassadors could do—
for circulation throughout the membership,

App-58
documenting purported ambassadorial agreement for
the designation of an Expo site. It continued with
Lorenzo and Ashe effectively tampering with the U.N.
record under the guise of a “technical” amendment. In
this way, they modified the original letter to add
language indicating that an agreement had already
been reached for using Ng’s company, SKI, to
implement the desired permanent Expo site. See
supra at pp. 9-10. That this alteration was used to
influence Zhou’s subsequent contract decision is
evident from the fact that Zhou referenced the Revised
U.N. Document as a predicate for UNOSSC’s support
for designation of Ng’s center. See App’x 1642
(observing that Revised U.N. Document “clearly
state[s] that [SKI] is tasked to establish the
Permanent Expo and Meeting Centre” (emphasis
added)); see supra at p. 12. Thus, we need not resolve
the parties’ dispute as to whether any of these
additional actions could themselves qualify as “official
acts” under McDonnell. They reinforce the conclusion
that Zhou’s entry into the December 25, 2014 Pro Bono
Agreement was an official action that, because
influenced by Lorenzo and Ashe in their official
capacities,
satisfied
the
second
McDonnell
requirement for an “official act.”
In sum, Ng’s McDonnell challenge to the jury
charge fails because McDonnell’s “official act”
standard does not apply to § 666 and the FCPA. To the
extent the district court nevertheless applied that
standard in charging the jury as to the quid pro quo
element of Ng’s § 666 crimes, it was error to do so.
That error, however, was harmless beyond a
reasonable doubt because the jury, having found more
proved than required by law—i.e., the intent to

App-59
influence an “official act”—it certainly would have
found Ng guilty on proper instructions omitting that
inapplicable standard. Finally, no different conclusion
is warranted by Ng’s charging and sufficiency
challenges based on McDonnell; those challenges are
meritless.
III. The “Corruptly” Challenge
When a statute uses the word “corruptly,” the
government must prove more than the general intent
necessary for most crimes. It must prove that a
defendant acted “with the bad purpose of
accomplishing either an unlawful end or result, or a
lawful end or result by some unlawful method or
means.” United States v. McElroy, 910 F.2d 1016,
1021-22 (2d Cir. 1990); see Arthur Andersen LLP v.
United States, 544 U.S. 696, 705 (2005) (stating that
“‘[c]orrupt’ and ‘corruptly’ are normally associated
with wrongful, immoral, depraved, or evil” intent). Ng
argues that to find him to have acted “corruptly” in
violation of either § 666 or the FCPA, the jury was
required to find something more, specifically, his
intent to have Lorenzo or Ashe breach an “official
duty” owed to the U.N. Ng faults the district court for
failing to instruct the jury as to this component of the
“corruptly” element of these statutes. 32 Further, he
On the § 666 crimes, the district court instructed the jury
that to act “corruptly” means to act “voluntarily and intentionally
with an improper motive or purpose to influence or reward John
Ashe’s and/or Francis Lorenzo’s actions,” which involves
“conscious wrongdoing or, as has sometimes been expressed, a
bad or evil state of mind.” Trial Tr. at 4242. On the FCPA
charges, the district court instructed that to find Ng acted
“corruptly,” the jury had to be persuaded beyond a reasonable
doubt that he acted “voluntarily and intentionally, with a bad
32

App-60
maintains that the record evidence was insufficient, as
a matter of law, to permit a reasonable jury to find
that he acted corruptly because the government never
proved a particular duty owed by Lorenzo or Ashe to
the U.N.
Ng’s arguments are defeated by precedent. In
United States v. Kozeny, 667 F.3d 122 (2d Cir. 2011),
this court upheld an instruction on the “corruptly”
element of an FCPA crime that made no mention of
breach of duty. The instruction charged simply as
follows:
A person acts corruptly if he acts voluntarily
and intentionally, with an improper motive of
accomplishing either an unlawful result or a
lawful result by some unlawful method or
means. The term “corruptly” is intended to
connote that the offer, payment, and promise
was intended to influence an official to misuse
his official position.
Id. at 135. In a § 666 case, this court similarly upheld
a charge that made no mention of breach of duty in
instructing that a person acted “corruptly” if he acted
“voluntarily and intentionally and with the purpose,
at least in part, of accomplishing either an unlawful
end result or a lawful end result by some unlawful
method or means.” United States v. Bonito, 57 F.3d
167, 171 (2d Cir. 1995). In then giving an example, this
court referenced a briber’s intent to influence the
purpose or evil motive of accomplishing either an unlawful result
or a lawful result by some unlawful method or means,” and
intending “to influence the foreign official to misuse his or her
official position.” Id. at 4252.

App-61
recipient’s “official duties,” but nowhere required an
intended breach. Id. (“A person acts corruptly, for
example, when he gives or offers to give something of
value intending to influence or reward a government
agent in connection with his official duties.”).
More instructive still is United States v. Alfisi,
wherein this court expressly declined to construe the
term “corruptly”—there, as used in the general
bribery statute, 18 U.S.C. § 201(b)(1)(A)—to “require[]
evidence of an intent to procure a violation of the
public official’s duty.” 308 F.3d 144, 150 (2d Cir. 2002).
Alfisi held that the defendant could be found guilty of
bribing a federal produce inspector even if the monies
paid were intended to ensure only that the official
accurately inspected and reported on the produce at
issue. This court explained that what the statute
outlawed were “payments made with a corrupt intent
. . . ‘to influence any official act.’” Id. at 150-51 (quoting
§ 201(b)(1)(A) to identify quid pro quo at issue). To
cabin the “corruptly” element further, to require an
intent not only to influence an official act, but also to
secure breach of an official duty, risked
“underinclusion,” particularly where “official duties
require the exercise of some judgment or discretion.”
Id. at 150. To illustrate, Alfisi cited the example of a
litigant who paid a judge in exchange for a favorable
decision. “[T]hat conduct would—and should—
constitute bribery,” even if it could subsequently be
shown that “the judgment was on the merits legally
proper.” Id.
Alfisi’s conclusion that the “corruptly” element of
bribery does not invariably require intent to secure a
breach of duty finds further support in the fact that

App-62
§ 201(b) separately proscribes corruptly paying a
public official with intent “to influence any official
act,” and making such a payment with intent “to
induce such public official to “act in violation of [his]
lawful duty.” Compare 18 U.S.C. § 201(b)(1)(A), with
id. § 201(b)(1)(C); see United States v. Alfisi, 308 F.3d
at 151 n.3 (recognizing overlap in these two sections
and observing that “resort to (A) seems most
appropriate in the case of bribes regarding decisions
involving the exercise of judgment or discretion, such
as judicial decisions or produce inspections, while use
of (C) would be most appropriate in the case of bribes
to induce actions that directly violate a specific duty,
such as a prison guard’s duty to prevent the smuggling
of contraband”). The FCPA makes a similar
distinction. Compare 15 U.S.C. § 78dd-2(a)(1)(A)(i),
with id. § 78dd-2(a)(1)(A)(iii); see supra at note 20.
United States v. Rooney, 37 F.3d 847 (2d Cir.
1994), a § 666 case relied on by Ng, warrants no
different conclusion. Although this court there
observed that “a fundamental component of a ‘corrupt’
act is a breach of some official duty owed to the
government or the public at large,” id. at 852, it did so
in highlighting the absence of any pertinent duty in
that case, see id. at 850, 853 (observing that private
manager of private development project that
“happen[ed] to have” federal agency as its lender, “was
under no duty to the government either to apply or not
to apply for . . . supplemental government funds” to
pay contractor and, thus, did not “breach[] any duty he
owed the government when he conditioned further
loan requests and thus prompter payment” upon
contractor’s performance of additional work at no
cost). Rooney elsewhere makes plain that a public

App-63
official acts corruptly, whenever he “accept[s] or
demand[s] a personal benefit intending to be
improperly influenced in [his] official duties.” Id. at
853 (emphasis added) (stating that “[i]t is an obvious
violation of duty and public trust for a public official”
to act with that intent). 33
Alfisi applies this same reasoning to the person
paying the bribe. He acts corruptly under
§ 201(a)(1)(A) if he pays a government official
intending “to influence any official act,” whether or not
the intent is “to procure a violation of the public
official’s duty.” United States v. Alfisi, 308 F.3d at 150.
Thus, there was no instructional error.
Nor was the evidence insufficient to allow a
reasonable jury to find that Ng acted corruptly. Ng
While Stichting Ter Behartiging Van de Belangen Van
Oudaandeelhouders In Het Kapitaal Van Saybolt Int’l B.V. v.
Schreiber (“Stichting”), 327 F.3d 173 (2d Cir. 2003), quotes
Rooney’s observation about breach of duty being “‘a fundamental
component of a “corrupt” act,’” id. at 182 (quoting United States
v. Rooney, 37 F.3d at 852), it does so only in the context of
concluding that a plaintiff who pleaded guilty to an FCPA crime
was not estopped from maintaining a malpractice action against
the attorney who purportedly advised him that his actions did
not violate the law. This court distinguished the “corruptly”
element of an FCPA crime, which was established by the guilty
plea, from plaintiff’s professed lack of knowledge in violating the
FCPA. See id. It was in that context that Stichting quoted not
only Rooney, but also United States v. Zacher, 586 F.2d at 915,
which suggests that “corruption” and “breach of duty” are not
necessarily synonymous. See Stichting, 327 F.3d at 182 (quoting
Zacher stating that “common thread that runs through common
law and statutory formulations of the crime of bribery is the
element of corruption, breach of trust, or violation of duty”
(emphasis added)).
33

App-64
argues that the government “did not introduce any
evidence at trial describing any duties that Ashe and
Lorenzo may have owed to the UN or the public, let
alone any evidence that Ng sought to induce them to
breach any such duty.” Appellant Br. at 46-47
(emphasis in original). The second part of this
argument fails for reasons just explained: the
“corruptly” element of the crimes of conviction does not
require proof of a breach of duty. As for Ng’s
sufficiency challenge to evidence of duty, we need not
here decide what, if any, duties ambassadors
accredited to the U.N. owe to that organization34
because the evidence here showed that, at times
pertinent to the charged crimes, Ashe served not only
as an ambassador to the U.N., but also as an official of
that organization, indeed, its second highest official,
the President of the General Assembly. Viewing the
evidence in the light most favorable to the
government, a reasonable jury could find that, at least
in that role, Ashe was an agent of the U.N. and, as
such, owed a duty to that organization not to sell his
ability to influence subordinate U.N. employees in
entering into transactions or business arrangements
for the U.N. See id. at 151; see also United States v.
Zacher, 586 F.2d at 916 (observing that bribery
For instance, we need not decide whether U.N. ambassadors
act “corruptly” vis-à-vis the U.N. when, as Lorenzo and Ashe did
here, they effectively sold to Ng the unique ability afforded
accredited ambassadors by the U.N. to place documents into the
official General Assembly record. Such a conclusion appeals,
however, particularly in light of Lorenzo’s and Ashe’s subsequent
breach of that trust to tamper with the original U.N. Document
and, thus, with the official U.N. record, thereby influencing
Zhou’s ultimate contract action. See supra at pp. 9-10, 13-14.
34

App-65
encompasses, in addition to acts entailing either a
breach of trust or duty, “the corrupt selling of what our
society deems not to be legitimately for sale[:] the
Senator’s vote, the citizen’s ballot, the labor leader’s
negotiating position or the employee’s actions taken
on behalf of an employer”). Thus, a reasonable jury
could find that Ashe misused his position as President
of the General Assembly when he accepted hundreds
of thousands of dollars from Ng in return for being
influenced—in turn—to use his influence with Zhou to
procure the Pro Bono Agreement between Ng’s
company and the U.N. See United States v. Rooney, 37
F.3d at 853. Whether the decision to enter into such
an agreement itself represented the breach of any duty
is irrelevant. It was corruptly influenced by Ng’s
payment. See United States v. Alfisi, 308 F.3d at 150.
Accordingly, there is no merit to Ng’s charging or
sufficiency challenges as to the “corruptly” element of
the crimes of conviction.
IV. The “Obtaining or Retaining Business”
Challenge
The FCPA prohibits bribing foreign officials for
the purpose of “obtaining or retaining business for or
with, or directing business to, any person.” 15 U.S.C.
§§ 78dd-2(a)(1)(B), 78dd-3(a)(1)(B). Although the
district court tracked this statutory language in
charging the jury, Ng argues that it erred in rejecting
his request to define “business” as “commercial”
business. Trial Tr. at 3843. According to Ng, the given
instruction was erroneous because the jury had “no
way to know whether ‘business’ referred to
commercial business or more broadly to any
transaction.” Appellant Br. 54. Moreover, Ng argues

App-66
that the trial evidence was insufficient for the jury to
find this “business” element because he intended to
build the convention center and to make it available
for UNOSSC use at no cost to the U.N.
These arguments merit little discussion.
Assuming arguendo that Congress intended to limit
the FCPA to “commercial bribery,” United States v.
Kay, 359 F.3d 738, 746-47 (5th Cir. 2004), a reasonable
jury would so understand from the statutory text.
While “business” can refer to any productive activity,
a reasonable jury, instructed as here to consider the
word in the context in which it is used in the FCPA,
i.e., “obtaining or retaining business for, or with, or
directing business to, any person,” Trial Tr. at 425758 (emphasis added) (quoting 15 U.S.C. §§ 78dd2(a)(1)(B), 78dd-3(a)(1)(B)), would need no further
instruction to understand it to bear the common
meaning of “commercial or mercantile activity,”
Webster’s Third New Int’l Dictionary (2002).
Moreover, the record evidence would allow a
reasonable jury to find that Ng paid the two U.N.
ambassadors intending for them to obtain a
commercial business deal with the U.N., specifically,
a contract for his Macau Conference Center to serve as
the official host site for the U.N.’s UNOSSC Expo. Ng
does not dispute that contracts are a routine tool in
obtaining, maintaining, and directing commercial
business. See generally United States v. Kay, 359 F.3d
at 748 (referencing corporate payments to assist in
obtaining government contracts as one abuse
informing FCPA). Indeed, at his request, the district
court charged the jury that “business” includes “the
execution or performance of contracts.” Trial Tr. at

App-67
4257; App’x 329. Nevertheless, Ng argues that a
contract, such as the Pro Bono Agreement, which
imposed no monetary obligations on the U.N., cannot
be deemed to have obtained “commercial” business for
him.
Ng’s argument fails because the FCPA prohibits
commercial bribery without regard to whether the
briber himself profits directly from the business
obtained. Indeed, it prohibits bribery designed to
obtain, retain, or direct business not only for or to the
briber, but for or to “any person.” 15 U.S.C. §§ 78dd2(a)(1)(B), 78dd-3(a)(1)(B). Here, “any person” could
refer to the U.N. A reasonable jury could find Ng guilty
under the FCPA for bribing Lorenzo and Ashe in
return for them using their influence to direct Ng’s
business to the U.N., specifically, his willingness
contractually to obligate himself to provide the U.N.
with the cost-free use of his Macau convention center
as its permanent UNOSSC Expo site. While such a
contract, on its face, might appear to give all
commercial benefits to the U.N., the jury could find
that by thus using bribery to direct his own business
obligation to the U.N., Ng thought he would best be
able to obtain greater business for and, thus, to
maximize profits from, the larger commercial complex
of which the convention center was a part. Thus, his
sufficiency challenge to the business purpose
component of the FCPA crimes also fails.
V. Ng’s Derivative Arguments
Because Ng’s challenges to his § 666 and FCPA
convictions are meritless, so too are his derivative
challenges to his money laundering convictions.

App-68
VI. CONCLUSION
To summarize, we conclude as follows:
1. The word “organization” as used in 18 U.S.C.
§ 666, and defined by 1 U.S.C. § 1 and 18 U.S.C. § 18,
applies to all nongovernment legal persons, including
public international organizations such as the U.N.
2. The “official act” quid pro quo for bribery as
proscribed by 18 U.S.C. § 201(b)(1), defined by id.
§ 201(a)(3), and explained in McDonnell v. United
States, 136 S. Ct. 2355 (2016), does not delimit bribery
as proscribed by 18 U.S.C. § 666 and the FCPA, 15
U.S.C. §§ 78dd-2, 78dd-3. Thus, the district court did
not err in failing to charge the McDonnell standard for
the FCPA crimes of conviction.
3. Insofar as the district court nevertheless
charged an “official act” quid pro quo for the § 666
crimes, that error was harmless beyond a reasonable
doubt because the jury, having found Ng guilty under
the higher McDonnell official act standard, would
certainly have found him guilty under a proper
instruction omitting that unnecessary standard. No
different conclusion obtains because Ng argues that
the jury’s “official act” finding was a product of
charging error conflating the McDonnell standard and
of insufficient evidence, as these arguments fail on the
merits.
4. The jury was not misinstructed as to the
“corruptly” element of § 666 and the FCPA, and the
evidence was sufficient to permit a reasonable jury to
find that element proved.
5. The jury was not misinstructed as to the
“obtaining or retaining business” element of the

App-69
FCPA, and the evidence was sufficient to permit a
reasonable jury to find that element proved.
Accordingly, the judgment of conviction is
AFFIRMED in all respects.

App-70
SULLIVAN, Circuit Judge, concurring:
I fully agree with the majority that the official acts
requirement set forth in McDonnell v. United States,
136 S. Ct. 2355 (2016), does not apply to 18 U.S.C.
§ 666 or the Foreign Corrupt Practices Act, 15 U.S.C.
§§ 78dd-2, 78dd-3. I likewise agree that the district
court erred by giving (what turned out to be) an
unnecessary McDonnell instruction. However, that
error is clearly harmless, for the reasons set forth in
the majority opinion.
Having reached this conclusion, I see no need to
engage in an alternative holding that essentially
hypothesizes what we would have concluded in the
event that McDonnell did apply to § 666. To my mind,
this analysis obscures what is otherwise a clear
holding, and since “[i]t has long been [the] considered
practice [of Article III courts] not to decide abstract,
hypothetical or contingent questions,” Ala. State Fed’n
of Labor, Local Union No. 103, United Bhd. of
Carpenters & Joiners of Am. v. McAdory, 325 U.S. 450,
461 (1945), I see no reason to engage in an
unnecessary and purely academic McDonnell
analysis.
Accordingly, I decline to join in the majority’s
alternative McDonnell holding. In all other respects, I
wholly concur in the majority’s excellent opinion.

App-71
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 18-1725-cr
________________
UNITED STATES OF AMERICA,
v.

Appellee,

NG LAP SENG, AKA DAVID NG, AKA DAVID NG LAP
SENG,
Defendant-Appellant.
JOHN W. ASHE, FRANCIS LORENZO, AKA FRANK
LORENZO, JEFF C. YIN, AKA YIN CHUAN, SHIWEI YAN,
HEIDI HONG PIAO, AKA HEIDI PARK,
Defendants.
________________
Filed: October 16, 2019
________________
ORDER
________________
Appellant, Ng Lap Seng, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered
the request for panel rehearing, and the active
members of the Court have considered the request for
rehearing en banc.

App-72
IN IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk

App-73
Appendix C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK
________________
No. 1:15-CR-00706-VSB-3
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

NG LAP SENG, AKA DAVID NG, AKA DAVID NG LAP
SENG,
Defendant.
________________
Filed: June 7, 2018
________________
JUDGMENT IN A CRIMINAL CASE
________________
THE DEFENDANT:


pleaded guilty to count(s) ______________________



pleaded nolo contendere to count(s) _____________
which was accepted by the court.



was found guilty on count(s) One, Two, Three,
Four, Five, and Six. after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:

App-74
Title &
Section
18 USC § 371

Nature of
Offense

Offense
Ended

Conspiracy
to 9/19/2015
Commit Bribery
and
Money
Laundering

18 USC §§ 666 Bribery
(a)(2)&2

9/19/2015

Count
1

2

The defendant is sentenced as provided in page 2
through 9 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.


The defendant has been found not guilty on
count(s)______________________________________



Count(s) All Open
 is  are dismissed on the
motion of the United States.

Is is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must
notify the court and United States attorney of material
changes in economic circumstances.
5/11/2018
Date of Imposition of Judgment
[handwritten: signature]
Signature of Judge
Vernon S. Broderick, U.S.D.J.
Name and Title of Judge
[handwritten: 6/7/18]
Date

App-75
ADDITIONAL COUNTS OF CONVICTION
Title &
Section

Nature of
Offense

Offense
Ended

Count

15 U.S.C.
§78dd2(a)(1)(A),
78dd2(a)(3)(A),
78dd(g)(2)(A)
and
18 U.S.C. §2

Violations of the 9/19/2015
Foreign Corrupt
Practices
Act:
Domestic
Concern

3

15 U.S.C.
§78dd3(a)(1)(A),
78dd-3
(a)(3)(A) and
18 U.S.C. §2

Violation of the 9/19/2015
Foreign
Corrupt
Practices Act:
Acts
In
Territory of the
U.S.

4

18 U.S.C.
§1956(h)

Conspiracy to 9/19/2015
commit money
laundering

5

18 U.S.C.
§1956(a)(2)
(A) and 2

Money
Laundering

6

09/19/2015

IMPRISONMENT
The defendant is hereby committed to the custody
of the Federal Bureau of Prisons to be imprisoned for
a total term of:
48 months imprisonment on each of Counts One, Two,
Three, Four, Five, and Six to run concurrently with
one another.

App-76


The court makes the following recommendations
to the Bureau of Prisons:

See Attached


The defendant is remanded to the custody of the
United States Marshal.



The defendant shall surrender to the United
States Marshal for this district:





at _______  a.m.

 p.m. on _________



as notified by the United States Marshal.

The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:


before 2 p.m. on 7/10/2018

.



as notified by the United States Marshal.



as notified by the Probation or Pretrial
Services Office.
***

The Court recommends to the Bureau of Prisons
that the Defendant be designated to LSCI Allenwood
in White Deer, PA and the Defendant be afforded the
opportunity to participate in the prison’s Institutional
Hearing Program to address removal proceedings
since he is a foreign-born non-U.S. citizen. These
recommendations
are
to
accommodate
the
Defendant’s medical conditions and to permit the
defendant’s attorneys located in New York, NY, as
well as friends and families largely located in China,
to visit.
The Defendant requests that he not be designated
to one of BOP’s privately contracted facilities for

App-77
sentenced aliens, especially not Monshannon Valley
Cl. The Court does not object to this request.
SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of:
3 years
MANDATORY CONDITIONS
1. You must not commit another federal, state or local
crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.
 The above drug testing condition is
suspended,
based
on
the
court’s
determination that you pose a lost risk of
future substance abuse. (check if
applicable)
4.  You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other statute
authorizing a sentence of restitution. (check if
applicable)
5.  You must cooperate in the collection of DNA as
directed by the probation officer. (check if
applicable)
6.  You must comply with the requirements of the
Sex Offender Registration and Notification Act (34
U.S.C. § 20901, et seq.) as directed by the probation
officer, the Bureau of Prisons, or any state sex
offender registration agency in the location where

App-78
you reside, work, are a student, or were convicted
of a qualifying offense. (check if applicable)
7.  You must participate in an approved program
for domestic violence. (check if applicable)
You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must
comply with the following standard conditions of
supervision. These conditions are imposed because
they establish the basic expectations for your behavior
while on supervision and identify the minimum tools
needed by probation officers to keep informed, report
to the court about, and bring about improvements in
your conduct and condition.
1. You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of your release from
imprisonment, unless the probation officer
instructs you to report to a different probation
office or within a different time frame.
2. After initially reporting to the probation office, you
will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must report
to the probation officer as instructed.
3. You must not knowingly leave the federal judicial
district where you are authorized to reside without
first getting permission from the court or the
probation officer.
4. You must answer truthfully the questions asked by
your probation officer.

App-79
5. You must live at a place approved by the probation
officer. If you plan to change where you live or
anything about your living arrangements (such as
the people you live with), you must notify the
probation officer at least 10 days before the change.
If notifying the probation officer in advance is not
possible due to unanticipated circumstances, you
must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at
any time at your home or elsewhere, and you must
permit the probation officer to take any items
prohibited by the conditions of your supervision
that he or she observes in plain view.
7. You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you
do not have full-time employment you must try to
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job
responsibilities), you must notify the probation
officer at least 10 days before the change. If
notifying the probation officer at least 10 days in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
8. You must not communicate or interact with
someone you know is engaged in criminal activity.
If you know someone has been convicted of a felony,
you must not knowingly communicate or interact

App-80
with that person without first getting the
permission of the probation officer.
9. If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours.
10. You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose
of causing bodily injury or death to another person
such as nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you pose a
risk to another person (including an organization),
the probation officer may require you to notify the
person about the risk and you must comply with
that instruction. The probation officer may contact
the person and confirm that you have notified the
person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
***
SPECIAL CONDITIONS OF SUPERVISION
1. You must provide the probation officer with access
to any requested financial information.
2. You must not incur new credit charges or open
additional lines of credit without the approval of
the probation officer unless you are in compliance
with the installment payment schedule.

App-81
3. You must obey the immigration laws and comply
with the directives of immigration authorities.
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments on
Sheet 6.
JVTA
Assess- Assessment
ment * Fine
TOTALS $600.00 $

Restitution

$1,000,000.00 $302,977.20



The determination of restitution is deferred until
_____, An Amended Judgment in a Criminal Case
(AO 24SC) will be entered after such
determination.



The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.

If the defendant makes a partial payment, each payee
shall receive an approximate proportioned payment,
unless specified otherwise in the priority order or
percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims
must be paid before the United States is paid.

*

22.

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-

App-82
Name of
Payee

Total

Loss **

United
Nations
TOTALS $

Restitution
Ordered

Priority or
Percentage

$302,977.20
0.00

$

302,977.20



Restitution amount ordered pursuant to plea
agreement $ 302,977.20



The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(f). All of the
payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant to
18 U.S.C. § 3612(g).



The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:


the interest requirement is waived for the
 fine  restitution



the interest requirement for the  fine
 restitution is modified as follows:

ADDITIONAL TERMS FOR CRIMINAL
MONETARY PENALTIES
The Court finds that the United Nations has
suffered monetary losses compensable under the
** Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23,
1996.

App-83
Victim and Witness Protection Act in the amount of
$302,977.20. Restitution payments are to be
addressed to the “Clerk of Court,” include the
defendant’s name and his corresponding docket
number, and be sent to United States District
Courthouse-SDNY, 500 Pearl Street, New York, NY
10007. The Clerk of Court will forward any restitution
payments to the victim, United Nations c/o Daniel M.
Gitner, Lankler Siffert & Wohl LLP, 500 Fifth Avenue
34th floor, New York, NY 10110.
The defendant shall satisfy any imposed order of
restitution in full within two months of the sentence
date.
If the defendant is engaged in a BOP nonUNICOR work program, the defendant shall pay $25
per quarter toward the criminal financial penalties.
However, if the defendant participates in the BOP’s
UNICOR program as a grade 1 through 4, the
defendant shall pay 50% of his monthly UNICOR
earnings toward the criminal financial penalties,
consistent with BOP regulations at 28 C.F.R. 545.11.
Any payment made that is not payment in full shall
be divided proportionately among the persons named.
***See Restitution Order for further details.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A

 Lump sum payment
immediately, balance due


not later than

of

$600.00
, or

due

App-84


in accordance with  C,  D,  E, or  F
below; or

B

 Payment to begin immediately (may be
combined with  C,  D, or  F below); or

C

 Payment in equal
(e.g.,
weekly,
monthly, quarterly) installments of $
over a period of
(e.g.,
months
or
years), to commence
(e.g., 30 or 60 days)
after the date of this judgment; or

D

 Payment in equal
(e.g.,
weekly,
monthly, quarterly) installments of $
over a period of
(e.g., months
or years); to commence
(e.g., 30
or 60 days) after release from imprisonment to a
term of supervision; or

E

 Payment during the term of supervised release
will commence within
(e.g., 30 or 60
days) after release from imprisonment. The court
will set the payment plan based on an assessment
of the defendant’s ability to pay at that time; or

F

 Special instructions regarding the payment of
criminal monetary penalties:
See page 8 for additional terms of criminal
monetary penalties

Unless the court has expressly ordered otherwise,
if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.

App-85
The defendant shall receive credit for all
payments previously made toward any criminal
monetary penalties imposed.


Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.



The defendant shall pay the cost of prosecution.



The defendant shall pay the following court
cost(s):



The defendant shall forfeit the defendant’s
interest in the following property to the United
States:
The amount of forfeiture is $1.5 million. See
forfeiture order for details.

Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,
(6) community restitution, (7) JVTA assessment,
(8) penalties, and (9) costs, including cost of
prosecution and court costs.

App-86
Appendix D
RELEVANT STATUTORY PROVISIONS
15 U.S.C. § 78dd-2. Prohibited foreign trade
practices by domestic concerns
(a) Prohibition
It shall be unlawful for any domestic concern, other
than an issuer which is subject to section 78dd-1 of
this title, or for any officer, director, employee, or
agent of such domestic concern or any stockholder
thereof acting on behalf of such domestic concern, to
make use of the mails or any means or instrumentality
of interstate commerce corruptly in furtherance of an
offer, payment, promise to pay, or authorization of the
payment of any money, or offer, gift, promise to give,
or authorization of the giving of anything of value to—
(1) any foreign official for purposes of—
(A)(i) influencing any act or decision of such
foreign official in his official capacity, (ii)
inducing such foreign official to do or omit to
do any act in violation of the lawful duty of
such official, or (iii) securing any improper
advantage; or
(B) inducing such foreign official to use his
influence with a foreign government or
instrumentality thereof to affect or influence
any act or decision of such government or
instrumentality,
in order to assist such domestic concern in
obtaining or retaining business for or with, or
directing business to, any person;

App-87
(2) any foreign political party or official thereof or
any candidate for foreign political office for
purposes of—
(A)(i) influencing any act or decision of such
party, official, or candidate in its or his official
capacity, (ii) inducing such party, official, or
candidate to do or omit to do an act in
violation of the lawful duty of such party,
official, or candidate, or (iii) securing any
improper advantage; or
(B) inducing such party, official, or candidate
to use its or his influence with a foreign
government or instrumentality thereof to
affect or influence any act or decision of such
government or instrumentality,
in order to assist such domestic concern in
obtaining or retaining business for or with, or
directing business to, any person; or
(3) any person, while knowing that all or a portion
of such money or thing of value will be offered,
given, or promised, directly or indirectly, to any
foreign official, to any foreign political party or
official thereof, or to any candidate for foreign
political office, for purposes of—
(A)(i) influencing any act or decision of such
foreign official, political party, party official,
or candidate in his or its official capacity, (ii)
inducing such foreign official, political party,
party official, or candidate to do or omit to do
any act in violation of the lawful duty of such
foreign official, political party, party official,
or candidate, or (iii) securing any improper
advantage; or

App-88
(B) inducing such foreign official, political
party, party official, or candidate to use his or
its influence with a foreign government or
instrumentality thereof to affect or influence
any act or decision of such government or
instrumentality,
in order to assist such domestic concern in
obtaining or retaining business for or with, or
directing business to, any person.
(b) Exception for routine governmental action
Subsections (a) and (i) shall not apply to any
facilitating or expediting payment to a foreign official,
political party, or party official the purpose of which is
to expedite or to secure the performance of a routine
governmental action by a foreign official, political
party, or party official.
(c) Affirmative defenses
It shall be an affirmative defense to actions under
subsection (a) or (i) that—
(1) the payment, gift, offer, or promise of anything
of value that was made, was lawful under the
written laws and regulations of the foreign
official’s, political party’s, party official’s, or
candidate’s country; or
(2) the payment, gift, offer, or promise of anything
of value that was made, was a reasonable and
bona fide expenditure, such as travel and lodging
expenses, incurred by or on behalf of a foreign
official, party, party official, or candidate and was
directly related to—
(A) the
promotion,
demonstration,
explanation of products or services; or

or

App-89
(B) the execution or performance of a
contract with a foreign government or agency
thereof.
(d) Injunctive relief
(1) When it appears to the Attorney General that
any domestic concern to which this section
applies, or officer, director, employee, agent, or
stockholder thereof, is engaged, or about to
engage, in any act or practice constituting a
violation of subsection (a) or (i) of this section, the
Attorney General may, in his discretion, bring a
civil action in an appropriate district court of the
United States to enjoin such act or practice, and
upon a proper showing, a permanent injunction or
a temporary restraining order shall be granted
without bond.
(2) For the purpose of any civil investigation
which, in the opinion of the Attorney General, is
necessary and proper to enforce this section, the
Attorney General or his designee are empowered
to administer oaths and affirmations, subpoena
witnesses, take evidence, and require the
production of any books, papers, or other
documents which the Attorney General deems
relevant or material to such investigation. The
attendance of witnesses and the production of
documentary evidence may be required from any
place in the United States, or any territory,
possession, or commonwealth of the United
States, at any designated place of hearing.
(3) In case of contumacy by, or refusal to obey a
subpoena issued to, any person, the Attorney
General may invoke the aid of any court of the

App-90
United States within the jurisdiction of which
such investigation or proceeding is carried on, or
where such person resides or carries on business,
in requiring the attendance and testimony of
witnesses and the production of books, papers, or
other documents. Any such court may issue an
order requiring such person to appear before the
Attorney General or his designee, there to produce
records, if so ordered, or to give testimony
touching the matter under investigation. Any
failure to obey such order of the court may be
punished by such court as a contempt thereof. All
process in any such case may be served in the
judicial district in which such person resides or
may be found. The Attorney General may make
such rules relating to civil investigations as may
be necessary or appropriate to implement the
provisions of this subsection.
(e) Guidelines by Attorney General
Not later than 6 months after August 23, 1988, the
Attorney General, after consultation with the
Securities and Exchange Commission, the Secretary of
Commerce, the United States Trade Representative,
the Secretary of State, and the Secretary of the
Treasury, and after obtaining the views of all
interested persons through public notice and comment
procedures, shall determine to what extent
compliance with this section would be enhanced and
the business community would be assisted by further
clarification of the preceding provisions of this section
and may, based on such determination and to the
extent necessary and appropriate, issue—

App-91
(1) guidelines describing specific types of conduct,
associated with common types of export sales
arrangements and business contracts, which for
purposes of the Department of Justice’s present
enforcement policy, the Attorney General
determines would be in conformance with the
preceding provisions of this section; and
(2) general precautionary procedures which
domestic concerns may use on a voluntary basis to
conform their conduct to the Department of
Justice’s present enforcement policy regarding
the preceding provisions of this section.
The Attorney General shall issue the guidelines and
procedures referred to in the preceding sentence in
accordance with the provisions of subchapter II of
chapter 5 of Title 5 and those guidelines and
procedures shall be subject to the provisions of chapter
7 of that title.
(f) Opinions of Attorney General
(1) The Attorney General, after consultation with
appropriate departments and agencies of the
United States and after obtaining the views of all
interested persons through public notice and
comment procedures, shall establish a procedure
to provide responses to specific inquiries by
domestic concerns concerning conformance of
their conduct with the Department of Justice’s
present enforcement policy regarding the
preceding provisions of this section. The Attorney
General shall, within 30 days after receiving such
a request, issue an opinion in response to that
request. The opinion shall state whether or not
certain specified prospective conduct would, for

App-92
purposes of the Department of Justice’s present
enforcement policy, violate the preceding
provisions of this section. Additional requests for
opinions may be filed with the Attorney General
regarding other specified prospective conduct that
is beyond the scope of conduct specified in
previous requests. In any action brought under
the applicable provisions of this section, there
shall be a rebuttable presumption that conduct,
which is specified in a request by a domestic
concern and for which the Attorney General has
issued an opinion that such conduct is in
conformity with the Department of Justice’s
present enforcement policy, is in compliance with
the preceding provisions of this section. Such a
presumption may be rebutted by a preponderance
of the evidence. In considering the presumption
for purposes of this paragraph, a court shall weigh
all relevant factors, including but not limited to
whether the information submitted to the
Attorney General was accurate and complete and
whether it was within the scope of the conduct
specified in any request received by the Attorney
General. The Attorney General shall establish the
procedure required by this paragraph in
accordance with the provisions of subchapter II of
chapter 5 of Title 5 and that procedure shall be
subject to the provisions of chapter 7 of that title.
(2) Any document or other material which is
provided to, received by, or prepared in the
Department of Justice or any other department or
agency of the United States in connection with a
request by a domestic concern under the
procedure established under paragraph (1), shall

App-93
be exempt from disclosure under section 552 of
Title 5 and shall not, except with the consent of
the domestic concern, be made publicly available,
regardless of whether the Attorney General
responds to such a request or the domestic
concern withdraws such request before receiving
a response.
(3) Any domestic concern who has made a request
to the Attorney General under paragraph (1) may
withdraw such request prior to the time the
Attorney General issues an opinion in response to
such request. Any request so withdrawn shall
have no force or effect.
(4) The Attorney General shall, to the maximum
extent practicable, provide timely guidance
concerning the Department of Justice’s present
enforcement policy with respect to the preceding
provisions of this section to potential exporters
and small businesses that are unable to obtain
specialized counsel on issues pertaining to such
provisions. Such guidance shall be limited to
responses to requests under paragraph (1)
concerning conformity of specified prospective
conduct with the Department of Justice’s present
enforcement policy regarding the preceding
provisions of this section and general
explanations of compliance responsibilities and of
potential liabilities under the preceding
provisions of this section.
(g) Penalties
(1)(A) Any domestic concern that is not a natural
person and that violates subsection (a) or (i)

App-94
of this section shall be fined not more than
$2,000,000.
(B) Any domestic concern that is not a
natural person and that violates subsection
(a) or (i) of this section shall be subject to a
civil penalty of not more than $10,000
imposed in an action brought by the Attorney
General.
(2)(A) Any natural person that is an officer,
director, employee, or agent of a domestic
concern, or stockholder acting on behalf of
such domestic concern, who willfully violates
subsection (a) or (i) of this section shall be
fined not more than $100,000 or imprisoned
not more than 5 years, or both.
(B) Any natural person that is an officer,
director, employee, or agent of a domestic
concern, or stockholder acting on behalf of
such domestic concern, who violates
subsection (a) or (i) of this section shall be
subject to a civil penalty of not more than
$10,000 imposed in an action brought by the
Attorney General.
(3) Whenever a fine is imposed under paragraph
(2) upon any officer, director, employee, agent, or
stockholder of a domestic concern, such fine may
not be paid, directly or indirectly, by such
domestic concern.
(h) Definitions
For purposes of this section:
(1) The term “domestic concern” means—

App-95
(A) any individual who is a citizen, national,
or resident of the United States; and
(B) any corporation, partnership, association,
joint-stock
company,
business
trust,
unincorporated
organization,
or
sole
proprietorship which has its principal place of
business in the United States, or which is
organized under the laws of a State of the
United States or a territory, possession, or
commonwealth of the United States.
(2)(A) The term “foreign official” means any
officer or employee of a foreign government or
any department, agency, or instrumentality
thereof, or of a public international
organization, or any person acting in an
official capacity for or on behalf of any such
government or department, agency, or
instrumentality, or for or on behalf of any
such public international organization.
(B) For purposes of subparagraph (A), the
term “public international organization”
means—
(i) an organization that is designated by
Executive order pursuant to section 288
of Title 22; or
(ii) any other international organization
that is designated by the President by
Executive order for the purposes of this
section, effective as of the date of
publication of such order in the Federal
Register.

App-96
(3)(A) A person’s state of mind is “knowing” with
respect to conduct, a circumstance, or a result
if—
(i) such person is aware that such person
is engaging in such conduct, that such
circumstance exists, or that such result is
substantially certain to occur; or
(ii) such person has a firm belief that
such circumstance exists or that such
result is substantially certain to occur.
(B) When knowledge of the existence of a
particular circumstance is required for an
offense, such knowledge is established if a
person is aware of a high probability of the
existence of such circumstance, unless the
person
actually
believes
that
such
circumstance does not exist.
(4)(A) The term “routine governmental action”
means only an action which is ordinarily and
commonly performed by a foreign official in—
(i) obtaining permits, licenses, or other
official documents to qualify a person to
do business in a foreign country;
(ii) processing governmental
such as visas and work orders;

papers,

(iii) providing police protection, mail
pick-up and delivery, or scheduling
inspections associated with contract
performance or inspections related to
transit of goods across country;
(iv) providing phone service, power and
water supply, loading and unloading

App-97
cargo, or protecting perishable products
or commodities from deterioration; or
(v) actions of a similar nature.
(B) The term “routine governmental action”
does not include any decision by a foreign
official whether, or on what terms, to award
new business to or to continue business with
a particular party, or any action taken by a
foreign official involved in the decisionmaking process to encourage a decision to
award new business to or continue business
with a particular party.
(5) The term “interstate commerce” means trade,
commerce, transportation, or communication
among the several States, or between any foreign
country and any State or between any State and
any place or ship outside thereof, and such term
includes the intrastate use of—
(A) a telephone or other interstate means of
communication, or
(B) any other interstate instrumentality.
(i) Alternative jurisdiction
(1) It shall also be unlawful for any United States
person to corruptly do any act outside the United
States in furtherance of an offer, payment,
promise to pay, or authorization of the payment of
any money, or offer, gift, promise to give, or
authorization of the giving of anything of value to
any of the persons or entities set forth in
paragraphs (1), (2), and (3) of subsection (a), for
the purposes set forth therein, irrespective of
whether such United States person makes use of

App-98
the mails or any means or instrumentality of
interstate commerce in furtherance of such offer,
gift, payment, promise, or authorization.
(2) As used in this subsection, the term “United
States person” means a national of the United
States (as defined in section 1101 of Title 8) or any
corporation, partnership, association, joint-stock
company,
business
trust,
unincorporated
organization, or sole proprietorship organized
under the laws of the United States or any State,
territory, possession, or commonwealth of the
United States, or any political subdivision thereof.
15 U.S.C. § 78dd-3. Prohibited foreign trade
practices by persons other than issuers
or domestic concerns.
(a) Prohibition
It shall be unlawful for any person other than an
issuer that is subject to section 78dd-1 of this title or a
domestic concern (as defined in section 78dd-2 of this
title), or for any officer, director, employee, or agent of
such person or any stockholder thereof acting on
behalf of such person, while in the territory of the
United States, corruptly to make use of the mails or
any means or instrumentality of interstate commerce
or to do any other act in furtherance of an offer,
payment, promise to pay, or authorization of the
payment of any money, or offer, gift, promise to give,
or authorization of the giving of anything of value to—
(1) any foreign official for purposes of—
(A)(i) influencing any act or decision of such
foreign official in his official capacity, (ii)
inducing such foreign official to do or omit to

App-99
do any act in violation of the lawful duty of
such official, or (iii) securing any improper
advantage; or
(B) inducing such foreign official to use his
influence with a foreign government or
instrumentality thereof to affect or influence
any act or decision of such government or
instrumentality,
in order to assist such person in obtaining or
retaining business for or with, or directing
business to, any person;
(2) any foreign political party or official thereof or
any candidate for foreign political office for
purposes of—
(A)(i) influencing any act or decision of such
party, official, or candidate in its or his official
capacity, (ii) inducing such party, official, or
candidate to do or omit to do an act in
violation of the lawful duty of such party,
official, or candidate, or (iii) securing any
improper advantage; or
(B) inducing such party, official, or candidate
to use its or his influence with a foreign
government or instrumentality thereof to
affect or influence any act or decision of such
government or instrumentality,
in order to assist such person in obtaining or
retaining business for or with, or directing
business to, any person; or
(3) any person, while knowing that all or a portion
of such money or thing of value will be offered,
given, or promised, directly or indirectly, to any

App-100
foreign official, to any foreign political party or
official thereof, or to any candidate for foreign
political office, for purposes of—
(A)(i) influencing any act or decision of such
foreign official, political party, party official,
or candidate in his or its official capacity, (ii)
inducing such foreign official, political party,
party official, or candidate to do or omit to do
any act in violation of the lawful duty of such
foreign official, political party, party official,
or candidate, or (iii) securing any improper
advantage; or
(B) inducing such foreign official, political
party, party official, or candidate to use his or
its influence with a foreign government or
instrumentality thereof to affect or influence
any act or decision of such government or
instrumentality,
in order to assist such person in obtaining or
retaining business for or with, or directing
business to, any person.
(b) Exception for routine governmental action
Subsection (a) of this section shall not apply to any
facilitating or expediting payment to a foreign official,
political party, or party official the purpose of which is
to expedite or to secure the performance of a routine
governmental action by a foreign official, political
party, or party official.
(c) Affirmative defenses
It shall be an affirmative defense to actions under
subsection (a) of this section that—

App-101
(1) the payment, gift, offer, or promise of anything
of value that was made, was lawful under the
written laws and regulations of the foreign
official’s, political party’s, party official’s, or
candidate’s country; or
(2) the payment, gift, offer, or promise of anything
of value that was made, was a reasonable and
bona fide expenditure, such as travel and lodging
expenses, incurred by or on behalf of a foreign
official, party, party official, or candidate and was
directly related to—
(A) the
promotion,
demonstration,
explanation of products or services; or

or

(B) the execution or performance of a
contract with a foreign government or agency
thereof.
(d) Injunctive relief
(1) When it appears to the Attorney General that
any person to which this section applies, or officer,
director, employee, agent, or stockholder thereof,
is engaged, or about to engage, in any act or
practice constituting a violation of subsection (a)
of this section, the Attorney General may, in his
discretion, bring a civil action in an appropriate
district court of the United States to enjoin such
act or practice, and upon a proper showing, a
permanent injunction or a temporary restraining
order shall be granted without bond.
(2) For the purpose of any civil investigation
which, in the opinion of the Attorney General, is
necessary and proper to enforce this section, the
Attorney General or his designee are empowered

App-102
to administer oaths and affirmations, subpoena
witnesses, take evidence, and require the
production of any books, papers, or other
documents which the Attorney General deems
relevant or material to such investigation. The
attendance of witnesses and the production of
documentary evidence may be required from any
place in the United States, or any territory,
possession, or commonwealth of the United
States, at any designated place of hearing.
(3) In case of contumacy by, or refusal to obey a
subpoena issued to, any person, the Attorney
General may invoke the aid of any court of the
United States within the jurisdiction of which
such investigation or proceeding is carried on, or
where such person resides or carries on business,
in requiring the attendance and testimony of
witnesses and the production of books, papers, or
other documents. Any such court may issue an
order requiring such person to appear before the
Attorney General or his designee, there to produce
records, if so ordered, or to give testimony
touching the matter under investigation. Any
failure to obey such order of the court may be
punished by such court as a contempt thereof.
(4) All process in any such case may be served in
the judicial district in which such person resides
or may be found. The Attorney General may make
such rules relating to civil investigations as may
be necessary or appropriate to implement the
provisions of this subsection.

App-103
(e) Penalties
(1)(A) Any juridical person that violates
subsection (a) of this section shall be fined not
more than $2,000,000.
(B) Any juridical person that violates
subsection (a) of this section shall be subject
to a civil penalty of not more than $10,000
imposed in an action brought by the Attorney
General.
(2)(A) Any natural person who willfully violates
subsection (a) of this section shall be fined not
more than $100,000 or imprisoned not more
than 5 years, or both.
(B) Any natural person who violates
subsection (a) of this section shall be subject
to a civil penalty of not more than $10,000
imposed in an action brought by the Attorney
General.
(3) Whenever a fine is imposed under paragraph
(2) upon any officer, director, employee, agent, or
stockholder of a person, such fine may not be paid,
directly or indirectly, by such person.
(f) Definitions
For purposes of this section:
(1) The term “person”, when referring to an
offender, means any natural person other than a
national of the United States (as defined
in section 1101 of Title 8 1 or any corporation,
partnership, association, joint-stock company,
business trust, unincorporated organization, or
1

So in original. A closing parenthesis probably should appear.

App-104
sole proprietorship organized under the law of a
foreign nation or a political subdivision thereof.
(2)(A) The term “foreign official” means any
officer or employee of a foreign government or
any department, agency, or instrumentality
thereof, or of a public international
organization, or any person acting in an
official capacity for or on behalf of any such
government or department, agency, or
instrumentality, or for or on behalf of any
such public international organization.
(B) For purposes of subparagraph (A), the
term “public international organization”
means—
(i) an organization that is designated by
Executive order pursuant to section 288
of Title 22; or
(ii) any other international organization
that is designated by the President by
Executive order for the purposes of this
section, effective as of the date of
publication of such order in the Federal
Register.
(3)(A) A person’s state of mind is knowing, with
respect to conduct, a circumstance or a result
if—
(i) such person is aware that such person
is engaging in such conduct, that such
circumstance exists, or that such result is
substantially certain to occur; or

App-105
(ii) such person has a firm belief that
such circumstance exists or that such
result is substantially certain to occur.
(B) When knowledge of the existence of a
particular circumstance is required for an
offense, such knowledge is established if a
person is aware of a high probability of the
existence of such circumstance, unless the
person
actually
believes
that
such
circumstance does not exist.
(4)(A) The term “routine governmental action”
means only an action which is ordinarily and
commonly performed by a foreign official in—
(i) obtaining permits, licenses, or other
official documents to qualify a person to
do business in a foreign country;
(ii) processing governmental
such as visas and work orders;

papers,

(iii) providing police protection, mail
pick-up and delivery, or scheduling
inspections associated with contract
performance or inspections related to
transit of goods across country;
(iv) providing phone service, power and
water supply, loading and unloading
cargo, or protecting perishable products
or commodities from deterioration; or
(v) actions of a similar nature.
(B) The term “routine governmental action”
does not include any decision by a foreign
official whether, or on what terms, to award
new business to or to continue business with

App-106
a particular party, or any action taken by a
foreign official involved in the decisionmaking process to encourage a decision to
award new business to or continue business
with a particular party.
(5) The term “interstate commerce” means trade,
commerce, transportation, or communication
among the several States, or between any foreign
country and any State or between any State and
any place or ship outside thereof, and such term
includes the intrastate use of—
(A) a telephone or other interstate means of
communication, or
(B) any other interstate instrumentality.
18 U.S.C. § 666. Theft or bribery concerning
programs receiving Federal funds
(a) Whoever, if the circumstance
subsection (b) of this section exists—

described

in

(1) being an agent of an organization, or of a
State, local, or Indian tribal government, or any
agency thereof—
(A) embezzles, steals, obtains by fraud, or
otherwise without authority knowingly
converts to the use of any person other than
the
rightful
owner
or
intentionally
misapplies, property that—
(i) is valued at $5,000 or more, and
(ii) is owned by, or is under the care,
custody, or control of such organization,
government, or agency; or

App-107
(B) corruptly solicits or demands for the
benefit of any person, or accepts or agrees to
accept, anything of value from any person,
intending to be influenced or rewarded in
connection with any business, transaction, or
series of transactions of such organization,
government, or agency involving anything of
value of $5,000 or more; or
(2) corruptly gives, offers, or agrees to give
anything of value to any person, with intent to
influence or reward an agent of an organization or
of a State, local or Indian tribal government, or
any agency thereof, in connection with any
business, transaction, or series of transactions of
such organization, government, or agency
involving anything of value of $5,000 or more;
shall be fined under this title, imprisoned not more
than 10 years, or both.
(b) The circumstance referred to in subsection (a) of
this section is that the organization, government, or
agency receives, in any one year period, benefits in
excess of $10,000 under a Federal program involving
a grant, contract, subsidy, loan, guarantee, insurance,
or other form of Federal assistance.
(c) This section does not apply to bona fide salary,
wages, fees, or other compensation paid, or expenses
paid or reimbursed, in the usual course of business.
(d) As used in this section—
(1) the term “agent” means a person authorized to
act on behalf of another person or a government
and, in the case of an organization or government,

App-108
includes a servant or employee, and a partner,
director, officer, manager, and representative;
(2) the term “government agency” means a
subdivision of the executive, legislative, judicial,
or other branch of government, including a
department,
independent
establishment,
commission, administration, authority, board,
and bureau, and a corporation or other legal
entity established, and subject to control, by a
government or governments for the execution of a
governmental or intergovernmental program;
(3) the term “local” means of or pertaining to a
political subdivision within a State;
(4) the term “State” includes a State of the United
States, the District of Columbia, and any
commonwealth, territory, or possession of the
United States; and
(5) the term “in any one-year period” means a
continuous period that commences no earlier than
twelve months before the commission of the
offense or that ends no later than twelve months
after the commission of the offense. Such period
may include time both before and after the
commission of the offense.

